  U.S. ENVIRONMENTAL PROTECTION AGENCY
  OFFICE OF INSPECTOR GENERAL



                                 Catalyst for Improving the Environment




EPA Should Clarify and
Strengthen Its Waste Management
Oversight Role With Respect to
Oil Spills of National Significance
Report No. 11-P-0706

September 26, 2011
Report Contributors:                                   Carolyn Copper
                                                       Jill Trynosky
                                                       Heather Drayton
                                                       Barry Parker
                                                       Denise Rice
                                                       Meghan Wilson




Abbreviations

ACP            Area Contingency Plans
E&P            Exploration and production
EPA            U.S. Environmental Protection Agency
FOSC           Federal on-scene coordinator
NCP            National Contingency Plan
NRF            National Response Framework
OIG            Office of Inspector General
OSC            On-scene coordinator
OSWER          Office of Solid Waste and Emergency Response
POTW           Publicly owned treatment works
RCRA           Resource Conservation and Recovery Act
UAC            Unified Area Command
UIC            Underground injection control


Cover photos: 	 From left: Oil collected in plastic bags and put into containers for landfill
                disposal; decontamination area and pressure washers at the Bayou Chico
                Decontamination Area in Pensacola, Florida. (EPA photos)




   Hotline
   To report fraud, waste, or abuse, contact us through one of the following methods:

   e-mail:    OIG_Hotline@epa.gov                         write:    EPA Inspector General Hotline
   phone:     1-888-546-8740                                        1200 Pennsylvania Avenue NW
   fax:       703-347-8330                                          Mailcode 8431P (Room N-4330)
   online:    http://www.epa.gov/oig/hotline.htm                    Washington, DC 20460
                                                                                                              11-P-0706
                       U.S. Environmental Protection Agency                                           September 26, 2011
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment

Why We Did This Review            EPA Should Clarify and Strengthen Its
The Office of Inspector
                                  Waste Management Oversight Role With
General (OIG) evaluated the       Respect to Oil Spills of National Significance
effectiveness of the U.S.
                                  What We Found
Environmental Protection
Agency’s (EPA’s) oversight        As a support agency to the Coast Guard, EPA’s oversight of the Gulf Coast oil
of the Gulf Coast oil spill       spill waste management activities provided assurance that oil-contaminated waste
waste management plans and        was disposed of properly. EPA helped shape the federal government’s
activities. Our objective was     requirements for BP’s waste management activities during the Gulf Coast oil
to determine whether the plans    spill. EPA had a key role in reviewing and approving BP’s waste management
and activities for tracking and   plans. EPA also conducted assessments of landfills to ensure that waste could be
transporting oil-contaminated     safely disposed, independently sampled waste, and kept the public informed about
waste effectively provided a      its oversight activities and results. The Gulf Coast oil spill was the first to be
full accounting of the volume     designated a “Spill of National Significance,” and as such, the increased federal
and disposition of waste.         oversight of BP’s waste management activities increased transparency and
                                  provided additional measures to protect the environment and public health.
Background
                                  EPA can be better prepared to respond to future Spills of National Significance.
On April 20, 2010, Deepwater      At the time of the spill, EPA did not have adequate waste management guidance
Horizon, an offshore rig          for a spill of this magnitude in place. In part, this was due to limitations in the oil
drilling oil for the BP America   spill response regulations, which do not specifically address Spills of National
Production Company,               Significance, as well as incomplete response plans. EPA fell short of its own
exploded approximately            goals for waste management oversight and did not conduct oversight for all states
50 miles off the coast of         and facilities that received waste. In addition, EPA’s lack of planning and
Louisiana, causing large          transparency on its decision to manage the oil spill waste in a manner different
quantities of oil to spill into   than provided by guidance resulted in staff confusion, frustration, and
the Gulf of Mexico. As of         inefficiency. Although we obtained no evidence that there were negative effects
June 19, 2011, over               from these limitations, some delay in the disposal of the waste did occur.
626 million pounds of waste
                                  What We Recommend
from the spill had been
disposed of on land.              We recommend that EPA, using lessons learned in response to this spill: work
                                  with other federal partners to determine whether the National Contingency Plan
                                  and National Response Framework for waste management oversight and roles
For further information,          should be updated; complete waste management guidance in Area Contingency
contact our Office of             Plans; develop a model waste management plan; and, to the extent needed, seek
Congressional and Public          additional authorities to perform waste management oversight in offshore Spills
Affairs at (202) 566-2391.
                                  of National Significance. We also recommend that EPA update the 2002 guidance
The full report is at:            on the oil and gas exploration and production waste exemption. EPA has taken
www.epa.gov/oig/reports/2011/     action on some recommendations, disagreed with others, and will need to fully
20110926-11-P-0706.pdf            respond to other recommendations in its final response to this report. We revised
                                  recommendations 1 and 3 in response to Agency comments. These
                                  recommendations are unresolved with resolution efforts in progress.
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460




                                                                            THE INSPECTOR GENERAL




                                       September 26, 2011

MEMORANDUM

SUBJECT:	 EPA Should Clarify and Strengthen Its Waste Management
          Oversight Role With Respect to Oil Spills of National Significance
          Report No. 11-P-0706


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:            Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated direct labor and travel costs for this report are $309,366.

Action Required

We defer to the Agency on recommendation 2. The recommendation is in a closed status for
reporting purposes; therefore, you do not need to respond further regarding this recommendation.
The Agency disagreed with recommendations 1.a. and 3—which were revised in response to
Agency comments—and did not provide a clear statement of agreement or disagreement with
recommendation 1.b. The Agency provided an acceptable corrective action plan for
recommendation 1.c., but did not provide milestone dates or a planned completion date.
Recommendations 1 and 3 are unresolved with resolution efforts in progress. Therefore, in
accordance with EPA Manual 2750 regarding unresolved recommendations, you are required to
provide a written response to recommendations 1 and 3, including a proposed corrective action
plan for agreed-to recommendations or proposed alternative actions for recommendations 1.a.,
1.b., and 3, and a planned completion date for recommendation 1.c., within 90 calendar days of
the report date.

Your response will be posted on the OIG’s public website, along with our memorandum
commenting on the response. The response should be provided as an Adobe PDF file that
complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. Please e-mail your response to Carolyn Copper at copper.carolyn@epa.gov. The final
response should not contain data that should not be released to the public; if the response
contains such data, the data for redaction or removal should be identified. We have no objections
to the further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
(202) 566-0827 or najjum.wade@epa.gov, or Carolyn Copper at (202) 566-0829 or
copper.carolyn@epa.gov.
EPA Should Clarify and Strengthen Its                                                                                      11-P-0706
Waste Management Oversight Role With
Respect to Oil Spills of National Significance


                                   Table of Contents 

Chapters
   1	    Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Noteworthy Achievements ...........................................................................                5     

                 Scope and Methodology ..............................................................................               5     


   2	    EPA Demonstrated Leadership in Oversight of 

         Waste Management Activities...........................................................................                     7


                 EPA Oversight Provided Assurance in Uncertain and
                    Massive Spill Environment ....................................................................                  7

                 Conclusion...................................................................................................     11 


   3	    EPA Action on Lessons Learned Can Help Ensure 

         Future Success in Oil Spill Waste Management .............................................                                12 


                 EPA Needs Better Waste Management Guidance for
                    Spills of National Significance ...............................................................                12 

                 EPA Can Improve Performance During Spills of National Significance
                    With Additional Planning...........................................................................            13 

                 EPA Oversight Did Not Include All Affected States and Facilities ...............                                  14 

                 Some EPA Actions Regarding the E&P Waste Caused
                    Confusion and Frustration .....................................................................                16 

                 Conclusion...................................................................................................     19     

                 Recommendations ......................................................................................            20 

                 Agency Comments and OIG Evaluation ......................................................                         21 


   Status of Recommendations and Potential Monetary Benefits..............................                                         22




Appendices
   A	    Agency Response to Draft Report and OIG Comment ...................................                                       23 


   B	    Distribution ........................................................................................................     44 

                                             Chapter 1

                                               Introduction

Purpose
                  The purpose of this review was to evaluate the effectiveness of U.S.
                  Environmental Protection Agency (EPA) oversight of BP America Production
                  Company’s waste management plans and activities during the Gulf Coast oil spill.
                  Our objective was to determine whether plans and activities for tracking and
                  transporting oil-contaminated waste effectively provided a full accounting of the
                  volume and disposition of waste.

Background
                  On April 20, 2010, Deepwater Horizon, an offshore rig drilling oil for BP,
                  exploded approximately 50 miles off the coast of Louisiana. The explosion and
                  fire on the rig sank Deepwater Horizon and damaged the oil wellhead. The rig’s
                  damaged oil wellhead was fitted with a blowout preventer; however, it failed to
                  function properly. On April 24, the first leaks from the well were reported. Large
                  quantities of oil began spilling into the Gulf of Mexico, leading the U.S.
                  Department of Homeland Security to designate the event as the first “Spill of
                  National Significance” on April 29. One week later, on May 7, oil was discovered
                  on the Louisiana shoreline; oil would later appear on the coasts of Alabama,
                  Florida, Mississippi, and, to a lesser extent, Texas. By the time the damaged oil
                  wellhead was capped on July 15, an estimated 4.9 million barrels1 of oil had been
                  released into the Gulf of Mexico.

                  Waste Streams and Disposal

                  The response effort generated a number of different waste streams. These
                  included oil and water mixtures, tar balls, oiled vegetation and debris, and oiled
                  response equipment such as oiled boom and safety gear used by response
                  workers.2 After being collected from cleanup operations, waste was sent to
                  transfer locations, also known as staging areas, operated by BP contractors in
                  Louisiana, Alabama, Mississippi, Florida, and Texas. Liquid oil waste was placed
                  in underground injection control (UIC) wells, sent for reuse or disposed of in
                  publicly owned treatment works (POTW) facilities. Waste material in solid form
                  was either sent to landfills for disposal or, to a lesser extent, recycled. Figure 1

1
  Estimated by the Flow Rate Technical Group and the Department of Energy and cited in Oil Budget Calculator:

Deepwater Horizon, November 2010, http://www.restorethegulf.gov. The Office of Solid Waste and Emergency 

Response has indicated that there is an ongoing investigation into the number of barrels spilled.

2
  The oil spill waste stream also included animal carcasses. The U.S. Fish and Wildlife Service and/or state fish and 

wildlife agencies were responsible for collecting and counting animal carcasses recovered during the oil spill 

response. 


11-P-0706                                                                                                         1
                   shows the flow of oil spill waste and materials from the point of origin to final
                   disposition, with the scope of this Office of Inspector General (OIG) evaluation
                   shown in blue.

                   Figure 1: Solid and liquid oil spill waste flow


                    Origination                         Offshore Recovery Operations                                 Onshore Recovery Operations
                                                            (Skimming and Boom)                                            (Beach Cleanup)



                                         Skimmed                                       Vessel municipal waste,
                    Waste Stream                                Skimmed oil                                                   Solid waste and
                                          water                                        oily containment boom,
                                                                                                                                 oily solids
                                                                                        oily absorbent boom,
                                                                                              skimmed oil




                                                           Concentrated emulsion
                                                                                        Some liquid

                                                             loaded to barge and
                      Staging Area/
                                                    waste went
                                                           transported to onshore                           Onshore staging
                                                                                         directly to
                    Treatment Facility                      treatment facility for       treatment               area
                                                                 separation             or disposal
                                                                                         facilities.




                                      Decanted and                                            Water and liquid                Solid wastes are
                                    returned to Gulf        Oil recycled and sent         wastes are treated and              sent to approved
                        Final 

                                    under approved                to market                 discharged to POTW                     landfill
                     Disposition

                                    Coast Guard and                                       and/or NPDESa facility,
                                     state directives                                          or is deep-well
                                                                                           injected at permitted
                                                                                                    facility



                   Source: OIG analysis of Unified Area Command Gulf-Wide Recovered Oil/Waste Management
                   Plan, 2010.
                        a
                            National Pollutant Discharge Elimination System

                   The amount of waste collected on a monthly basis generally began to decline after
                   October 2010. Waste from the oil spill continues to be collected and as of June
                   19, 2011, more than 626 million pounds of waste had been disposed of on land.3
                   The volume of this waste could have filled 83.2 football fields 3 feet deep. The
                   bulk of this waste was collected in Louisiana and Alabama.

                   Unadulterated crude-oil-contaminated waste from the Gulf Coast oil spill was
                   exempted from Resource Conservation and Recovery Act (RCRA) Subtitle C
                   federal hazardous waste regulations under a 1988 regulatory determination.4 This
                   exemption is referred to as the oil and gas exploration and production (E&P)
                   waste exemption, and it applies to wastes derived from primary oil E&P

3
  This amount and other oil waste totals in this report do not include animal carcasses, oil burned off the surface of 

the water, oil that dispersed from the spill site, or any other oil spilled that was not collected and brought to land for 

disposal. 

4
  Regulatory Determination for Oil and Gas and Geothermal Exploration, Development and Production Wastes, 

53 Fed. Reg. 25446–25454 (July 6, 1988). 


11-P-0706                                                                                                                                          2
                 operations (as opposed to transportation and manufacturing operations). As a
                 result of EPA’s determination, solid wastes that meet the E&P exemption from
                 federal hazardous waste regulations are regulated as nonhazardous solid waste,
                 predominantly by state and local governments. EPA does not typically become
                 directly involved in the management or oversight of solid wastes, including E&P
                 waste disposal. An EPA guidance document titled Exemption of Oil and Gas
                 Exploration and Production Wastes from Federal Hazardous Waste Regulations,
                 issued in 2002, provides information on how to determine whether a solid waste is
                 covered by the E&P exemption, examples of wastes that are covered and not
                 covered by the E&P exemption, and clarifications on misunderstandings about the
                 E&P exemption.

                 Oil Spill Response Guidance and Procedures

                 The National Oil and Hazardous Substances Pollution Contingency Plan (NCP)
                 provides federal agencies with the organizational structure and procedures for
                 preparing for and responding to discharges of oil and releases of hazardous
                 substances, pollutants, and contaminants. The National Response Team, chaired
                 by EPA and composed of multiple federal agencies, may propose changes to the
                 NCP to improve the effectiveness of the national response system. The NCP
                 designates EPA and Coast Guard roles and responsibilities. The Director for the
                 Office of Emergency Management serves as EPA’s representative/chair to the
                 National Response Team; the Coast Guard serves as vice-chair5. Developed by
                 Area Committees, Area Contingency Plans (ACPs) contain location-specific
                 procedures for responding to discharges and are implemented in conjunction with
                 the NCP and the Regional Contingency Plan. The ACPs are reviewed by Regional
                 Response Teams.

                 The NCP outlines several waste management guidelines that ACPs should
                 address, including:

                         The sampling, testing, and classifying of recovered oil and oiled debris
                         The segregation, temporary storage, and stockpiling of recovered oil and
                          oiled debris
                         Prior state disposal approvals and permits
                         The routes, methods, and sites for the disposal of collected oil, oiled
                          debris, and animal carcasses
                         Procedures for obtaining waivers, exemptions, or authorizations associated
                          with handling or transporting waste materials

                 In addition, per the NCP, ACPs may also contain a hierarchy of preferences for
                 disposal alternatives, with recycling (reprocessing) being the most preferred, and


5
 During response actions, however, the chair of the National Response Team is provided by the agency that
provides the on-scene coordinator. Therefore, during the Gulf Coast oil spill response, the Coast Guard provided
both the federal on-scene coordinator (see page 4) and the chair for the National Response Team.

11-P-0706                                                                                                      3
                  what disposal requirements are mandatory or may not be waived during the
                  response.

                  The National Response Framework (NRF), developed by the U.S. Department of
                  Homeland Security, with input from federal partners and other stakeholders,
                  provides principles that enable response partners to prepare for and provide a
                  unified national response to domestic incidents. Under the Oil and Hazardous
                  Materials Response Annex (Emergency Support Function #10), the NRF includes
                  actions to prepare for and respond to oil and other hazardous materials discharges.
                  These actions are consistent with those outlined in the NCP, which is an
                  “operational supplement” to the NRF.6

                  BP and Federal Government Roles in Cleanup

                  The U.S. Coast Guard National Pollution Fund Center, responsible for
                  administering the Oil Spill Liability Trust Fund, designated two BP subsidiaries
                  and five other companies as responsible parties for Gulf Coast oil-spill-related
                  claims, including costs the government incurred associated with the spill response
                  and cleanup. The NCP designates the Coast Guard as the lead response agency for
                  spills within or threatening coastal zones, whereas EPA leads the response to
                  spills that occur in inland zones. Under RCRA, EPA has the authority to mandate
                  cleanup activities in cases of imminent and substantial danger to the environment
                  or public health. During this response, however, EPA saw no need to invoke this
                  authority.

                  The Coast Guard established a federal on-scene coordinator (FOSC)7 to lead the
                  Unified Area Command (UAC), whose members included EPA, other federal
                  agencies, and BP. The BP Unified Area Commander served as the responsible
                  party’s counterpart to the FOSC. The Coast Guard, as the lead agency of the
                  response, and EPA, as a support agency, provided oversight and assistance to BP
                  to ensure timely and protective oil spill waste management.

                  To provide oversight of BP’s waste management activities, in June 2010, the
                  Coast Guard, with EPA concurrence, issued waste management directives to BP.
                  These directives required BP to submit waste management plans and certain
                  deliverables to be approved by the Coast Guard, and to report information on the
                  amount and characteristics of the waste on BP’s website. The directives also
                  required BP to allow EPA access to facilities where waste would be stored or
                  disposed of, so that EPA could oversee waste management activities. According
                  to the EPA Administrator, the directives created “enforceable requirements,
                  implementation procedures, and oversight plans related to BP’s handling of waste

6
  “Emergency Support Function #10–Oil and Hazardous Materials Response Annex,” January 2008, p. 2, 

http://www.fema.gov. 

7
  An FOSC is a predesignated federal official, in this case the Coast Guard, who oversees the oil spill response 

effort. The FOSC is responsible for providing access to federal resources, providing technical assistance, and 

coordinating the efforts of federal, local, and private parties. 


11-P-0706                                                                                                            4
                 materials.”8 Also in June 2010, the Coast Guard, EPA, and the involved states
                 approved BP’s waste management plans for Louisiana, and the combined plan for
                 Alabama, Mississippi, and Florida. In October 2010, BP’s final waste
                 management plan, which covered all affected states and allowed for some state-
                 specific management activities, was approved by the federal and state oversight
                 agencies.

Noteworthy Achievements
                 During the Gulf Coast oil spill and response, EPA, as a support agency to the
                 Coast Guard, worked to ensure that its federal presence was apparent and its
                 response activities, as well as BP’s waste management activities, were
                 transparent. EPA’s efforts to accomplish these goals included reviewing waste
                 management plans, planning and conducting visits to staging areas and landfills,
                 reviewing waste reports, sampling waste for hazardous characteristics, and
                 creating a special section on its website for the Gulf Coast oil spill response.9 The
                 waste management page of EPA’s website included the waste management plans,
                 the waste management directives, site visit plan and results, and EPA’s waste
                 sampling strategy and results.

Scope and Methodology

                 We conducted our review in accordance with generally accepted government
                 auditing standards. Those standards require that we plan and perform the
                 evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis
                 for our findings and conclusions. We believe that the evidence obtained provides
                 a reasonable basis for our findings and conclusions based on our evaluation
                 objectives. We performed our review from November 2010 to July 2011.

                 We conducted our review at EPA headquarters and in Regions 4 and 6. Region 4
                 includes Alabama, Florida, and Mississippi, and Region 6 includes Louisiana and
                 Texas. These regions were involved in planning and implementing waste
                 management oversight in response to the oil spill. We interviewed staff at all
                 levels of the response, including headquarters senior staff and an official in the
                 Office of Solid Waste and Emergency Response (OSWER), senior staff in the
                 Office of General Counsel, and staff in the Office of Enforcement and
                 Compliance Assurance. In the regions, we interviewed on-scene coordinators
                 (OSCs), Response Support Corps members, and RCRA staff, and in Region 6, we
                 interviewed staff from the regional Office of Water and a regional official.

                 We identified stakeholders from non-EPA agencies and organizations that played
                 a part in waste management activities. We interviewed the incident FOSC and
8
  “Testimony of Lisa P. Jackson, Administrator U.S. Environmental Protection Agency, Before the Subcommittee 

on Commerce, Justice, Science, and Related Agencies, Committee on Appropriations, United States Senate,” 

July 15, 2010, http://www.epa.gov/ocir/hearings/testimony/111_2009_2010/2010_0715_lj.pdf. 

9
  “EPA Response to BP Spill in the Gulf of Mexico,” http://www.epa.gov/BPSpill. 


11-P-0706                                                                                                  5
            other Coast Guard staff at UAC, BP environmental staff and a contractor at UAC,
            and state environmental agency staff in Louisiana and Alabama. In addition, we
            interviewed site managers at a staging area and a landfill in Louisiana, as well as a
            parish president in Louisiana. We chose these locations based on the high
            volumes of oil-contaminated waste staged or disposed of there.

            We reviewed the following criteria to determine EPA’s planned waste
            management activities:

                  Federal regulations and guidance for contingency planning 
                  Waste management directives and letters issued by the FOSC 
                  BP’s waste management plans and waste tracking reports 
                  Pollution removal funding authorizations 
                  EPA’s plans for waste management oversight, as described in documents
                   obtained from its website and in testimony by the EPA Administrator.  

            We then reviewed the staging area and landfill site visit and sampling reports
            from EPA, Louisiana Department of Environmental Quality, and Alabama
            Department of Environmental Management. We reviewed those reports to
            determine whether EPA’s planned activities matched its actual activities, and to
            compare EPA’s activities with the states’ activities. Our interviews and review of
            internal communications from EPA Region 4, Region 6, and headquarters, as well
            as the states, supplemented our analysis of these documents.

            The scope of this evaluation is limited to EPA’s waste management oversight and
            activities from the point when waste was brought to a staging or decontamination
            area to its final disposition. EPA played a role in shoreline and beach cleanup
            operations, but these activities were not identified by the Coast Guard or EPA as
            waste management activities and therefore fall outside of the scope of this review.




11-P-0706                                                                                    6
                                    Chapter 2

      EPA Demonstrated Leadership in Oversight of 

            Waste Management Activities 

            For the Gulf Coast oil spill, EPA initiated oversight activities that went beyond its
            typical activities in less significant oil spills. To ensure that waste from the oil
            spill was safely and appropriately disposed of, EPA helped shape BP’s waste
            management plans, conducted assessments of staging areas and landfills, sampled
            waste, and kept the public informed of its activities and results. The increased
            federal oversight of BP’s waste management activities was not designed to
            independently account for the full volume and disposition of waste produced.
            However, EPA’s oversight did provide additional transparency and increase
            measures to protect the environment and public health.

EPA Oversight Provided Assurance in Uncertain and Massive Spill
Environment
            In interviews with the OIG,
                                              The Deepwater Horizon Oil Spill is a
            EPA officials and
                                              massive and potentially unprecedented
            management cited several
                                              environmental disaster that has already
            reasons for EPA’s increased
                                              impacted the lives and the livelihoods of
            oversight of BP’s waste
                                              countless people in the Gulf Coast region.
            management activities
                                              While BP is a responsible party for this
            during the Gulf Coast oil
                                              oil spill, EPA has been working alongside
            spill response, including the
                                              many federal and state agencies to
            magnitude of the event, the
                                              implement emergency oil spill response
            need to address public
                                              actions since day one of the incident. . . .
            concerns regarding the
                                              EPA will continue to take a proactive and
            waste, and the impact of
                                              robust role in monitoring, identifying,
            dispersants. A January 2011
                                              and responding to potential public health
            recommendation given by
                                              and environmental concerns.
            the President’s National
            Commission on the BP              –Lisa Jackson, EPA Administrator, Testimony
            Deepwater Horizon Oil Spill       before the United States Senate, Committee on
                                              Environment and Public Works, May 18, 2010
            and Offshore Drilling called
            for an increase in
            government oversight.
            Specifically, the commission
            recommended that EPA and the Coast Guard establish distinct plans and
            procedures for responding to a Spill of National Significance. As part of that
            recommendation, the report stated, “Increase government oversight of the
            responsible party, based on the National Contingency Plan’s requirement that the



11-P-0706                                                                                    7
                 government ‘direct’ the response where a spill poses a substantial threat to public
                 health or welfare.”10

                 According to the NCP, the lead agency may request the support of other federal
                 agencies to assist with tasks within their expertise. However, during the Gulf
                 Coast oil spill response, EPA initiated response planning before funding
                 reimbursement procedures were initiated by the Coast Guard. An EPA senior
                 manager said in an interview that BP’s initial waste management plans, written
                 before the spill occurred, were limited in detail and inadequate. EPA, as well as
                 the Coast Guard, realized that more detailed and comprehensive plans were
                 needed. EPA also realized that, compared with other oil spill responses, more
                 EPA staff with waste management skills and knowledge were needed to ensure
                 that BP’s waste management plans were adequate.

                 BP’s Waste Management Plans

                 To create enforceable waste management plans, the Coast Guard, with EPA’s
                 concurrence, issued directives to BP outlining the requirements for BP’s plans.
                 EPA, along with the Coast Guard and the relevant states, then reviewed BP’s
                 initial waste management plans prior to the Coast Guard approving them. The
                 directives required BP to continually update its website with:

                        The volume of disposed waste
                        The locations of staging areas, landfills, and other disposal or waste
                         recovery facilities
                        The volume of waste going to each disposal or recovery facility
                        Updates to the list of approved facilities
                        Results of all waste sampling

                 In addition, the Coast Guard–issued waste management directives included a
                 provision that BP shall allow EPA, its representatives, authorized state agencies,
                 and/or contractors access to all staging areas; transfer stations; decontamination
                 stations; and recycling, reuse, and disposal facilities used to treat or store waste
                 generated from the oil spill. At these sites, EPA was authorized to assess, sample,
                 and inspect any oil and oil-contaminated solid and liquid wastes recovered during
                 the cleanup. All sites where these wastes would be staged, treated, or disposed of
                 would also be subject to all applicable federal, state, and local laws.

                 EPA’s Waste Management Oversight Activities

                 EPA’s oversight activities did not include procedures to independently track the
                 transportation, volume, and disposition of the oil spill waste. However, part of
                 BP’s transparency requirement, established by the waste management directives,

10
 National Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling Report to the President,
Deep Water: The Gulf Oil Disaster and the Future of Offshore Drilling, January 2011, p. 268.

11-P-0706                                                                                                   8
            was for it to develop a tracking system specifying the amounts of waste collected
            and to post online the locations of staging areas and disposal facilities. EPA
            regions ensured that BP was complying with this requirement by reviewing the
            waste volume reports and the information BP posted on its website. EPA regions
            also worked with BP to ensure consistency in the way volumes were reported.
            When BP initially tracked solid waste by volume in one region and mass in
            another, EPA requested that BP provide consistent units of measure (mass) for all
            waste. BP complied with this request.

            Prior to the issuance of waste management directives, EPA had started some of its
            waste management oversight activities, including landfill and staging area
            assessments. From May 27 to June 12, 2010, EPA regional staff and/or EPA
            contractors conducted initial assessments of each landfill. These assessments
            determined whether landfills were capable of handling the oil spill waste and were
            in compliance with applicable regulations and laws. Before BP finalized its list of
            approved landfills, EPA sought to identify any potential issues, looking at past
            compliance histories, status of current permits, and landfill design and capacity,
            as well as the existence of any community concerns.

            EPA further ensured compliance at the landfill and staging area facilities by
            developing a Staging/Decontamination Area and Landfill Site Visit Plan. This
            plan stated that EPA
            would conduct site visits
            to each landfill twice a
            month and to each
            staging and
            decontamination area
            once a week. For the
            most part, site visits were
            conducted according to
            EPA’s plan. In a few
            instances in which the
            site did not receive oil
            spill waste materials or
            when there was a tropical
            storm, the visit was not
            conducted. EPA regional      EPA inspecting waste containers at staging areas in
                                         August 2010. (EPA photo)
            staff and/or EPA
            contractors visited over 190 staging areas and decontamination sites from June 28
            to October 4, 2010, and a total of 22 landfills from July 21 to September 29, 2010.
            These landfills and staging areas were located in Louisiana, Alabama,
            Mississippi, and Florida.

            EPA developed assessment checklists for site visits that included items such as
            addressing any on-site spills of oily waste and ensuring that storage containers
            were lined and covered. EPA response staff then communicated any problems


11-P-0706                                                                                  9
               they observed with site managers and followed up with managers and state
               environmental departments to make sure these problems were adequately
               addressed. Completed checklists, as well as summary reports of EPA’s site visits,
               were posted on EPA’s website. State environmental departments also maintained
               an almost daily presence at staging area, decontamination, and landfill sites,
               reporting on the compliance status of facilities as well as volumes of waste. EPA
               regional staff reviewed these reports to provide an additional level of oversight.




            BP wastes (non-oil-contaminated trash and debris, and crude-contaminated debris) on the
            Springhill Landfill, Cambellton, Florida. (EPA photo)


               EPA also developed a sampling plan to independently sample the waste and
               ensure that it was properly characterized. The plan detailed the tests to be
               performed, the frequency of testing, and where sampling would occur. The
               directives, issued by the Coast Guard, required that BP conduct regular sampling
               and make the results publicly available. Preliminary results of EPA’s testing of
               oily debris, tar balls, mousse oil, and other petroleum waste streams showed only
               chemical constituents that are usually found in petroleum products. According to
               EPA’s website, independent sampling of waste only resulted in one toxicity
               characteristic exceedance. This exceedance was for benzene, a hazardous
               constituent that was detected at a level above the threshold for EPA’s toxicity
               characteristic regulation. These results, when posted on EPA’s website, provided
               transparency and gave assurance that the waste was being handled properly.




11-P-0706                                                                                             10
Conclusion 

            Although EPA was not the lead federal agency during this response, EPA
            identified activities that would improve existing waste management plans and
            procedures, and ensured that appropriate precautions were taken with the waste.
            EPA’s waste management oversight activities were not designed to provide, nor
            were they required to provide, an independent, full accounting of the volume and
            disposition of the oil spill waste. EPA took a leadership role to inform and
            oversee BP’s oil spill waste management activities and ensure that these activities
            were transparent and protective of human health and the environment.




11-P-0706                                                                                  11
                                         Chapter 3

     EPA Action on Lessons Learned Can Help Ensure 

      Future Success in Oil Spill Waste Management 

                Despite EPA’s leadership and success in conducting oversight of the Gulf Coast
                oil spill waste management activities, EPA fell short of its own goals in some
                instances. While EPA has waste management expertise and worked to oversee
                BP’s waste management activities, it had to implement new response and
                oversight tools for this nationally significant spill. Waste management plans and
                oversight procedures were developed and finalized as the response progressed,
                potentially diverting resources to planning that could have been used to strengthen
                the response effort. EPA’s oversight did not include all affected states and
                disposal facilities. In addition, EPA’s testing regime and recommendation for
                disposal of E&P waste were a departure from its own guidance on the handling of
                E&P waste. This departure, as well as a lack of sufficient justification from EPA
                officials and management, created some confusion and frustration among EPA,
                Coast Guard, and BP staff. EPA can build on its response success in this oil spill
                by creating improved, formal guidance to be used in future oil spills.

EPA Needs Better Waste Management Guidance for Spills of National
Significance
                Because the Gulf Coast oil spill occurred in the coastal zone, the NCP designated
                the Coast Guard as the lead federal agency, and EPA was designated as a
                supporting agency by the Coast Guard FOSC. The NRF, which describes the
                national approach for responding to domestic incidents, also provides additional
                information on the responsibilities of the lead agency during oil spill responses.11
                However, neither the NCP nor the NRF outlines specific waste management
                oversight roles for EPA when it is not the lead agency during a response. These
                guidelines instead leave it up to the FOSC—in this case the Coast Guard—to
                request additional support as needed from supporting agencies. The NCP also
                allows the government to designate an oil spill as nationally significant, but
                beyond naming a National Incident Commander, this designation does not
                activate any additional procedures, as the President’s commission points out in its
                report on the Gulf Coast oil spill.12

                Supplementing the NCP, ACPs contain location-specific procedures for
                responding to discharges. However, at the time of the Gulf Coast oil spill, EPA
                and its federal partners had not adequately updated waste management guidelines


11
 Specifically, “Emergency Support Function #10—Oil and Hazardous Materials Response Annex,” of the NRF.
12
 National Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling Report to the President,
Deep Water: The Gulf Oil Disaster and the Future of Offshore Drilling, January 2011, p. 267.

11-P-0706                                                                                               12
                  in relevant ACPs. EPA, as the chair of the National Response Team,13 may
                  provide support to all Regional Response Teams by reviewing ACPs and ensuring
                  consistency with national policies on emergency response.

                  Multiple ACPs cover the affected Gulf states, and all of these plans include some
                  waste management planning. None, however, contain all of the required or
                  optional guidance14 as outlined in the NCP. For example, several of the ACPs
                  contain checklists for addressing the sampling and classifying of waste, but only
                  one identifies a hierarchy of preferences for disposal alternatives. None of the
                  ACPs contains a complete list of the routes, methods, and sites for disposal of oil-
                  contaminated waste. Additionally, two of these plans have sections for sample
                  waste management plans, but these sections are blank. EPA can initiate more
                  comprehensive and consistent planning for waste management oversight during
                  oil spills by ensuring that the guidelines set forth by the NCP are complete in
                  ACPs.

EPA Can Improve Performance During Spills of National Significance
With Additional Planning
                  EPA has over 30 years of experience in waste management, including its response
                  activities related to debris removal after Hurricane Katrina, which provides it with
                  a high degree of expertise in this area. Stemming from its RCRA program
                  responsibilities, EPA provides technical assistance and guidance to state agencies
                  in charge of solid waste management, and it has access to state and local officials
                  responsible for maintaining environmental and human health protection at landfill
                  and staging areas. With the number of staging areas and landfills involved in the
                  Gulf Coast oil spill cleanup, EPA was well positioned to coordinate the waste
                  management oversight operations. However, no plans or guidance had been
                  developed in advance to outline what EPA’s role would be in this area for coastal
                  Spills of National Significance.

                  While the NCP allows for flexibility in determining response-specific procedures,
                  EPA’s lack of prior planning for Spills of National Significance, as well as the
                  absence of complete waste management planning in the ACPs, may have led to
                  some inefficiencies. Time had to be taken to develop waste management
                  directives and finalize waste management plans during the oil spill. The Coast
                  Guard, with the concurrence of EPA, issued a waste management directive for
                  Louisiana, and a joint directive for Alabama, Mississippi, and Florida, near the
                  end of June 2010, more than a month after oil first hit the Louisiana shoreline and

13
   According to the NCP, the National Response Team is responsible for national response and preparedness
planning, coordinating regional planning, and providing policy guidance and support to the Regional Response
Teams. The National Response Team consists of representatives from designated agencies with a representative
from EPA and the Coast Guard serving as the chair and vice chair, respectively. Regional Response Teams are
responsible for regional planning and preparedness activities before response actions, and for providing support to
the OSC when activated during a response.
14
   See “Background” in chapter 1 for a description of the required or optional guidance outlined in the NCP.

11-P-0706                                                                                                        13
            waste began to be generated. These directives required BP to add more detailed
            information to their two existing waste management plans (one for Louisiana and
            one for Alabama, Mississippi, and Florida). A Gulfwide plan was issued in
            October 2010, the same week EPA stopped its oversight of landfills and staging
            areas. Some UAC staff suggested that the extensive revisions to the plan required
            resources that could have been used elsewhere in the response.

            EPA’s role as a supporting agency to the Coast Guard may have created
            additional inefficiencies. According to a senior EPA official, it was efficient for
            EPA to work directly with BP on activities such as developing the waste
            management plans and day-to-day operations. However, while EPA could advise
            the Coast Guard on waste management directives to BP, it could not issue them
            directly.

            A Coast Guard senior official stated that EPA was instrumental in developing the
            waste management directives and plans, as well as offering guidance on
            community concerns, waste monitoring, and waste sampling. In letters written by
            the Coast Guard FOSC and addressed to BP in July 2010, the FOSC advised BP
            to respond to EPA’s comments regarding the waste management plans and timely
            posting of waste management information and data on BP’s website.

            EPA could further enhance its performance during nationally significant
            responses by establishing an agreed-upon exit strategy. Toward the end of the
            response, EPA and the Coast Guard did not have agreement on when EPA would
            end its presence at UAC. Consequently, a Coast Guard official suggested that
            EPA’s physical presence at UAC ended too soon and may have contributed to
            some inefficiency. Meanwhile, EPA management stated that EPA staff at UAC
            did not have a sufficient amount of work. Additionally, some EPA responders felt
            that EPA conducted independent waste sampling and landfill and staging area
            visits for too long based on the consistent characteristics of the waste streams.
            Without established criteria for demobilizing its activities, EPA could either leave
            UAC too early or use resources unnecessarily by staying too long.

EPA Oversight Did Not Include All Affected States and Facilities
            EPA fell short of its own oversight goals, set out in the Administrator’s testimony
            and statements on its website, by not including all involved states and facility
            types in some of the waste management plans and activities. EPA was diligent in
            visiting and assessing the landfills and staging areas used to dispose of and
            transport waste from the oil spill. However, it did not consistently visit or assess
            any other type of disposal facility. An EPA responder explained that, in EPA’s
            opinion, health and environmental impacts at staging areas and landfills were of
            more concern to communities than the impacts at other types of disposal facilities.

            While BP’s waste management plans included all states where oil spill waste was
            collected and disposed of, not all affected states were included in the waste


11-P-0706                                                                                   14
               management directives and EPA’s on-site assessments. The directives included
               Louisiana, Alabama, Mississippi, and Florida, but did not include Texas and
               Oklahoma, states that also accepted oil spill waste and materials. According to the
               Chief of OSWER’s Waste Characterization Branch, Texas was not included in the
               directives because, initially, Texas was not expected to receive BP spill waste.
               However, Texas landfills, to a lesser extent than the landfills in Alabama, Florida,
               Louisiana, and Mississippi, did receive some waste. EPA visited landfills and
               staging and decontamination sites in Louisiana, Mississippi, Alabama, and
               Florida, but did not visit any Texas sites. EPA explained that it did not visit Texas
               staging areas and landfills because they were not in use during the time EPA was
               conducting site visits. Oklahoma was not included in the directives but received
               material for recycling.

                During the response, EPA did not visit or assess liquid waste disposal facilities.
                As shown in figure 2, liquid oil waste (liquid and oily liquid) accounted for
                approximately 64 percent of the collected oil waste. This type of waste includes
                oil and water mixtures or emulsions such as liquid from skimming and recovery
                operations. Liquid waste also includes water that has minor amounts of oil mixed
                                                                         with it, such as from
             Figure 2: Percentages of cumulative waste and               decontamination, storm
             materials,a June 2011                                       water, or treated water. It
                                                                         was disposed of in either
                             1%                                          UIC wells or POTW
                                            43%
                                                                         facilities. EPA stated that
                                                                         it omitted these facilities
            30%                                       Liquid	            from its visits because
                                                                         UICs and POTWs are
                                                      Oily liquid
                                                                         heavily regulated by the
                                                      Solid              states and, after
                                                                         communicating with the
                                                      Oily solid
                                                                         states, EPA decided that
             5%                                       Recyclables and    additional oversight was
                                                      recoverables       unnecessary.

                          21%


            Source: BP, Weekly Waste Tracking Cumulative Report by
            Manifest Source, Report for Week of 06/13/2011–06/19/2011,
            http://www.bp.com.

              a
                  “Waste and materials” refers to materials sent for disposal
                   or recycling on land.




11-P-0706                                                                                        15
            Workers pressure wash used oil boom. (EPA photo)

            In addition to omitting liquid waste disposal facilities from its review, EPA did
            not visit or assess any recycling facilities. In BP’s waste management plans, as
            well as in the NCP, recycling was listed as a preferable disposal option. Yet,
            compared to other methods of disposal, recycling accounted for the lowest
            volume of waste (a little over 1 percent of the 626 million pounds of waste
            collected) and was slow to get underway. When asked about the oversight
            omission for recycling facilities, EPA stated that materials sent for recycling are
            not considered to be waste, and EPA’s oversight activities were confined to waste
            materials.

Some EPA Actions Regarding the E&P Waste Caused Confusion and
Frustration
 
            The majority of waste generated from the Gulf Coast oil spill was exempted from
            federal hazardous waste regulations under the E&P exemption. Solid wastes that
            are covered by the E&P exemption are predominately regulated by state and local
            governments. However, during the Gulf Coast oil spill, EPA conducted
            independent sampling of the oil-contaminated waste to give additional assurance
            that it would be handled properly. During the response, EPA developed an
            internal question and answer document, designed as a summary response to legal
            questions that arose as a result of the Gulf Coast oil spill. The document was
            intended to provide brief responses as an aid to senior officials. According to an
            EPA senior manager, this document was used internally to justify the testing of
            the E&P waste, but we did not find evidence that it was widely shared or
            communicated beyond senior management recipients. In addition to testing the oil
            spill waste, EPA recommended disposal actions that some responders considered
            a departure from its general E&P guidance.

            Although EPA regional response staff followed EPA’s waste management
            oversight plans for the Gulf Coast oil spill, many responders we interviewed were
            critical of some of EPA’s actions. Confusion and frustration, as well as
            differences of opinion among some EPA, Coast Guard, and BP responders,


11-P-0706                                                                                  16
                     hinged on three novel EPA-recommended procedures for characterizing and
                     managing oil-contaminated waste: (1) EPA’s independent waste sampling at and
                     repeated site assessments of landfills and staging areas, (2) additional sampling
                     and reporting required of BP, and (3) EPA’s request that any waste that failed a
                     toxicity test15 be disposed of as hazardous waste.

                     Regarding the first two points of departure—waste testing, and repeated
                     assessments and additional BP sampling and reporting—EPA senior managers
                     explained that EPA’s independent testing was done to address concerns regarding
                     the magnitude of the event and the use of dispersants. Nonetheless, EPA and
                     UAC responders stated that EPA’s regulations do not require this additional
                     testing. EPA’s 2002 guidance on E&P waste states that it is the operator’s
                     (e.g., BP’s) responsibility to determine whether waste is subject to hazardous
                     waste regulations. Several EPA responders, including oil spill OSCs, told us that
                     they were not aware of EPA ever having taken samples of oil spill waste prior to
                     this spill. Operators are also not typically required to conduct sampling to the
                     extent BP was required to do so by the waste management directives. While state
                     responders conducted landfill and staging area inspections in coordination with
                     EPA, one of the two states we spoke with was unaware of the extent to which
                     EPA was testing the waste. Some responders we spoke with stated that a written
                     statement from EPA regarding the E&P exemption may have lessened some of
                     the confusion.

                     The third point of departure—EPA’s recommendation for disposing of the
                     waste—also generated criticism from EPA and UAC responders. According to the
                     2002 E&P guidance, E&P-exempt waste that is mixed with a nonexempt
                     characteristic hazardous waste may lose its exemption if the mixture exhibits
                     hazardous characteristics of the nonexempt waste. If the mixture exhibits
                     hazardous characteristics of the exempt waste, however, the waste will still be
                     exempt. While the use of dispersants—a nonexempt waste—created the potential
                     for a mixture to occur, EPA recommended that any oil spill waste that failed a
                     toxicity test be disposed of as hazardous waste. However, EPA’s 2002 guidance
                     does not speak to how to dispose of exempt waste that fails a toxicity test.

                     Several responders at EPA, the Coast Guard, and BP did not believe that EPA
                     could require BP to dispose of E&P-exempt waste as hazardous, even if it failed a
                     toxicity test. EPA’s internal guidance on the Gulf Coast oil spill waste did not
                     offer justification for disposing of E&P waste as hazardous waste. Ultimately, BP
                     and the Coast Guard did not agree to EPA’s waste disposal recommendation, and
                     BP included language in its waste management plans that requested alignment
                     with EPA’s 2002 guidance.

                     Overall, we found no evidence that the confusion, frustration, and differences of
                     opinion regarding the disposal and testing of E&P waste negatively impacted the
                     waste management aspects of the spill response. However, in one instance,
15
     Specifically, the Toxicity Characteristic Leaching Procedure test for volatiles, semivolatiles, and metals.

11-P-0706                                                                                                          17
            uncertainty regarding how to appropriately dispose of E&P exempt waste that
            failed a toxicity test led to a delay in disposing of a tank full of a skimmed oil and
            water mixture. From July 28 to September 22, 2010, this tank was stored at a
            staging area while several rounds of samples were taken to determine whether the
            mixture exhibited a benzene exceedance. The samples returned conflicting results,
            and EPA advised the Coast Guard that the “prudent approach” would be to
            dispose of the mixture in a UIC well designed to handle hazardous waste. A BP
            contractor then disposed of it in a well designed to handle industrial waste.




            Example of a frac tank used to help oil and water separate. (EPA photo)


            In an interview, a Coast Guard official stated that he likely spent 40 hours dealing
            with this one container of waste. He noted that this was a considerable amount of
            time to spend on a small amount of waste that was E&P exempt. It took 56 days
            for this container of waste to be disposed of—11 days longer than the maximum
            45 days allowed for containers to be stored at staging areas, as specified by BP’s
            waste management plan. In addition, a UAC representative pointed out that the
            container used to store the waste in question could not be used for further cleanup
            activities during this time. Although the lack of consensus in this matter resulted
            in only one delay, the event points to a lack of consensus and clear guidelines for
            how to dispose of E&P waste that fails the toxicity test.

            Moreover, while transparency was an issue of foremost importance to EPA during
            the response, it delayed posting information about this container of waste on its
            website. EPA updated its spill response activities—including waste management
            oversight—on its Gulf Coast Oil Spill Response website; however it took EPA
            almost 4 months to post information about the benzene exceedance. This
            information, along with data from the samples, was posted on EPA’s website on
            January 19, 2011.




11-P-0706                                                                                     18
Conclusion

                 The additional sampling conducted by
                 both EPA and BP provided assurance                  I think that one of the lessons
                 regarding the proper handling and                   learned from this is that in this
                 disposition of the waste. However, the              idea of a unified command, we
                 lack of a definitive statement from EPA             are directing them [BP] to do
                 and a lack of clear internal                        things and we are working to
                 communications on the E&P waste                     get a job done, but we have a
                 exemption resulted in a lack of buy-in              different responsibility as
                 among EPA regional staff, the Coast                 government agencies to make
                 Guard, and BP regarding some of                     sure we do that with
                 EPA’s waste management activities.                  transparency. . . .
                 This gap in communication on EPA’s
                 rationale for decisions about handling              –Lisa Jackson, EPA Administrator,
                                                                     Testimony before the House
                 E&P waste, as well as the delay in                  Transportation and Infrastructure
                 posting sample results, demonstrates a              Committee, May 19, 2010.
                 lack of transparency in EPA actions on
                 this matter.

                 A consistent and sufficiently justified message is necessary to ensure that EPA
                 staff, as well as the regulated community, are fully knowledgeable of the
                 necessity for additional oversight and testing of oil spill waste during future
                 nationally significant spill events. A description of EPA’s role and responsibility
                 as a supporting agency in offshore Spills of National Significance, along with
                 waste management plans in ACPs that cover all required guidelines under the
                 NCP, would allow for a more efficient response in the future. Some of the
                 obstacles EPA encountered could be avoided in the case of future Spills of
                 National Significance by seeking increased clarification on waste management
                 oversight in the NCP and enhancing its own planning for an event of this
                 magnitude.

                 In its 2011–2015 strategic plan, EPA has recognized that it needs to review the
                 BP Gulf Coast oil spill disaster, as well as its current practices. The plan states:

                         Given the Deepwater Horizon BP oil spill and the efforts to clean
                         up and restore the Gulf of Mexico, EPA will review its current
                         rules, guidelines and procedures on oil spills. EPA will ensure that
                         it has the appropriate tools to prevent, prepare for, respond to, and
                         recover from such incidents within its jurisdiction.

                 New NCP guidance to “add distinct plans and procedures for Spills of National
                 Significance”16 should capture EPA’s lessons learned from this event, streamline

16
 National Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling Report to the President,
Deep Water: The Gulf Oil Disaster and the Future of Offshore Drilling, January 2011, p. 267.

11-P-0706                                                                                                   19
            future response efforts, and designate clear lines of authority. EPA’s oversight
            activities could have been more complete by including all states in the directives
            and all types of disposal facilities in its assessments. EPA can further assure its
            success in responding to future Spills of National Significance by updating its
            guidance on management of E&P waste. It can also provide more transparent and
            complete communication to responders and the oversight community on EPA
            opinions in this area.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

                   1.	 From lessons learned in response to this Spill of National Significance:
                          a.	 Work with other federal partners to determine whether the
                               NCP and NRF should be updated to include processes for
                               waste management oversight in response to nationally
                               significant oil spills, including EPA’s role as a supporting
                               agency in offshore spills.
                          b.	 Work with other federal partners to complete guidance for
                               waste management oversight in ACPs.
                          c.	 Develop a model waste management plan and a waste
                               oversight framework that includes:
                                    i.	 provisions for including all states and facilities
                                        involved in the response,
                                   ii.	 definition of roles and responsibilities for all
                                        authorized responders, and
                                  iii.	 an exit strategy for decommissioning waste
                                        management oversight activities.

                   2.	 To the extent needed, seek additional authorities from the lead agency
                       to perform waste management oversight in offshore Spills of National
                       Significance.

                   3.	 Update EPA’s 2002 guidance on the E&P waste exemption to include
                       circumstances under which E&P waste could be managed or disposed
                       of differently, including during applicable oil spills. Incorporate into
                       any lessons-learned review a discussion of EPA opinions and
                       procedures for overseeing and handling waste from this spill, including
                       those wastes subject to the E&P exemption.




11-P-0706                                                                                   20
Agency Comments and OIG Evaluation

            We reviewed OSWER’s comments and made changes to the report and
            recommendations as appropriate. Appendix A provides the full text of OSWER’s
            response and the OIG’s comments.

            We defer to OSWER on recommendation 2 and we consider that recommendation
            closed upon issuance of this report. Recommendations 1 and 3 are unresolved
            with resolution efforts in progress.

            OSWER agreed with recommendation 1.c. and provided an acceptable corrective
            action plan, but did not provide milestone dates or a planned completion date.
            OSWER stated that it will develop a model waste management plan. In addition,
            it already has a guidance document and website where it will include a model
            waste management plan for a coastal Spill of National Significance and any
            additional guidance developed by EPA.

            OSWER did not agree with recommendations 1.a. and 3. We revised both
            recommendations in response to Agency comments. For recommendation 1.b.,
            OSWER did not provide a clear statement of agreement or disagreement.  
             
             
             
             
             
             
             
             




11-P-0706                                                                              21
                                  Status of Recommendations and
                                    Potential Monetary Benefits
                                                                                                                                     POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                         Planned
    Rec.    Page                                                                                                        Completion   Claimed    Agreed To
    No.      No.                           Subject                           Status1         Action Official               Date      Amount      Amount

     1       20 	 From lessons learned in response to this Spill of            U        Assistant Administrator for 

                  National Significance:                                               Solid Waste and Emergency 

                      a. Work with other federal partners to determine                          Response

                          whether the NCP and NRF should be
                          updated to include processes for waste
                          management oversight in response to
                          nationally significant oil spills, including
                          EPA’s role as a supporting agency in
                          offshore spills.
                      b. Work with other federal partners to complete
                          guidance for waste management oversight in
                          ACPs.
                      c.	 Develop a model waste management plan
                          and a waste oversight framework that
                          includes:
                             i.	 provisions for including all states and
                                 facilities involved in the response,
                             ii. 	definition of roles and responsibilities
                                  for all authorized responders, and
                             iii. an exit strategy for decommissioning
                                  waste management oversight activities.

     2       20 	 To the extent needed, seek additional authorities            C        Assistant Administrator for      09/01/11
                  from the lead agency to perform waste                                Solid Waste and Emergency
                  management oversight in offshore Spills of                                    Response
                  National Significance.

     3       20     Update
                        	 EPA’s 2002 guidance on the E&P waste                 U        Assistant Administrator for 

                    exemption to include circumstances under which                     Solid Waste and Emergency 

                    E&P waste could be managed or disposed of                                   Response

                    differently, including during applicable oil spills.
                    Incorporate into any lessons-learned review a
                    discussion of EPA opinions and procedures for
                    overseeing and handling waste from this spill,
                    including those wastes subject to the E&P
                    exemption.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress


11-P-0706                                                                                                                                            22
                                                                                   Appendix A

 Agency Response to Draft Report and OIG Comment
                                (Received September 1, 2011)


MEMORANDUM

SUBJECT:      Response to OIG Draft Evaluation Report, “EPA Should Clarify and Strengthen
              Its Waste Management Oversight Role With Respect to Oil Spills of National
              Significance,” Project No. OPE-FY10-0028, July 15, 2011

FROM:         Mathy Stanislaus
              Assistant Administrator

TO:           Arthur Elkins, Jr.
              Inspector General
              Office of Inspector General


We appreciate the opportunity to comment on the Office of Inspector General (OIG) draft
evaluation report: “EPA Should Clarify and Strengthen Its Waste Management Oversight Role
With Respect to Oil Spills of National Significance,” Project No. OPE-FY10-0028, dated July
15, 2011. We worked with OECA, OGC, and Regions 4 and 6 to prepare this response to the
draft evaluation report.

The Deepwater Horizon (DWH) Oil Spill was an unprecedented event requiring an extraordinary
response. The IG recognized that EPA’s oversight activities provided additional transparency
and ensured that waste from the oil spill was safely and appropriately disposed. The report,
however, would be improved through clarifications to two key areas: EPA’s role in a coastal spill
response and the application of EPA’s hazardous waste regulations for exploration and
production (E&P) wastes.

As a supporting agency to the Coast Guard, EPA conducted waste management activities
throughout the course of the spill and for a time following the capping of the well. EPA
collected, analyzed and posted data on its website regarding waste management activities to
provide assurance to affected communities and other interested parties that oil-contaminated
waste was properly managed and disposed. EPA reviewed and approved BP’s waste
management plans, conducted assessments of landfills and staging and decontamination areas,
accounted for the volume and disposition of the waste, performed independent waste sampling,
assessed community impacts (Environmental Justice analyses) and engaged in community
outreach to keep the public informed of EPA’s waste management activities. Throughout the
course of the DWH response, EPA rapidly adapted and responded to ever-changing conditions
and challenges to ensure the protection of human health and the environment.



11-P-0706                                                                                    23
Recommendation 1.a.: OIG recommends that the Assistant Administrator for Solid Waste and
Emergency Response work with other federal partners to update the NCP and National
Response Framework to include processes for waste management oversight in response to
nationally significant oil spills, including EPA’s role as a supporting agency in offshore spills.

Response: EPA disagrees that additional processes for waste management oversight are needed
for the National Oil and Hazardous Substances Contingency Plan (NCP) or the National
Response Framework (NRF). EPA believes that adequate authorities exist. The NCP discusses
waste management specifications for Subpart D – Operational Response Phases for Oil Removal.
The NCP says that “oil and contaminated materials recovered in cleanup operations shall be
disposed of in accordance with the Regional Contingency Plan (RCP), the Area Contingency
Plan (ACP) and any applicable laws, regulations or requirements. Regional Response Team
(RRT) and Area Committee guidelines may identify the disposal options available during an oil
spill response and may describe what disposal requirements are mandatory or may not be waived
by the On Scene Coordinator (OSC). The ACPs may identify a hierarchy of preferences for
disposal alternatives, with recycling (reprocessing) being the most preferred, and other
alternatives preferred based on priorities for health or the environment. (40 CFR § 300.31(c)).
The current process, where the Federal On-Scene Coordinator (FOSC) requests support through
the RRT or National Response Team (NRT), is the appropriate mechanism for EPA involvement
in a coastal spill of national significance (SONS). The Coast Guard is fully aware of and
understands EPA capabilities, including waste management support. During the DWH response,
EPA effectively provided assistance and recommendations working as a support agency to the
Coast Guard. EPA believes that the existing system worked well during the DWH response.

OIG Response: EPA has left out the introductory sentence to recommendation 1, which specifies
that EPA’s actions in response to recommendations 1.a., 1.b., and 1.c. are intended to be “from
lessons learned in response to this Spill of National Significance.”

We have modified recommendation 1.a. in our final report. However, we also note that, in response
to recommendation 5 in OIG Report No. 11-P-0534, Revisions Needed to National Contingency Plan
Based on Deepwater Horizon Oil Spill, August 25, 2011, EPA stated that it will work with federal
partners to review this response and the NCP to address lessons learned and to develop guidance for
Spills of National Significance. We believe that guidance on waste management oversight should be
included in this review and that EPA could respond to recommendation1.a. through corrective
actions underway for recommendation 5 in the OIG’s August 25, 2011, report.

Regarding EPA’s role as a support agency during coastal Spills of National Significance, the NRF
includes a description of roles for other supporting agencies in other functions; however, it does not
specify roles for EPA when it is a supporting agency in the function of waste management. In
addition, while EPA may believe the Coast Guard is aware of and understands EPA capabilities,
including waste management support, the EPA’s support capabilities are not formally outlined. In our
opinion, documentation of EPA’s capabilities and specific support functions would be a more
effective management control for effective and efficient responses. Based on the experiences of the
Coast Guard, EPA, and other federal agencies during this response, developing guidance that
includes lessons learned from waste management activities will help enhance the efficiency and
effectiveness of future responses.
(Continued on next page)


11-P-0706                                                                                        24
(Continued from previous page)
The recommendation is unresolved with resolution efforts in progress. In its 90-day response to this
report, EPA should provide an update on the resolution status and, if the recommendation is agreed
to, provide estimated milestones for completion.

Recommendation 1.b.: OIG recommends that the Assistant Administrator for Solid Waste and
Emergency Response work with other federal partners to complete guidance for waste
management oversight in ACPs.

Response: During the DWH response, EPA recognized that a coastal SONS could likely require
adjusting pertinent guidance. EPA has the flexibility to modify guidance, therefore EPA will
review existing waste management guidance to determine whether it needs to be modified to
better apply to a coastal SONS. Based upon the results of that review, EPA will take the
appropriate actions. If the guidance is revised, EPA will work with other federal partners,
through the RRTs, to assist ACs in addressing waste management oversight in ACPs. However,
the application of waste management guidance for a coastal SONS would be subject to the
review of Coast Guard, in conjunction with the RRT.

OIG Response: In this report, we identify gaps in the ACPs that cover the Gulf states affected
by this oil spill. All of these plans include some waste management planning. None, however,
contain all of the required or optional guidance as outlined in the NCP. For example, several of
the ACPs contain checklists for addressing the sampling and classifying of waste, but only one
identifies a hierarchy of preferences for disposal alternatives. None of the ACPs contains a
complete list of the routes, methods, and sites for disposal of oil-contaminated waste.
Additionally, two of these plans have sections for sample waste management plans, but these
sections are blank. We continue to recommend that guidance for waste management oversight in
the ACPs should be completed or updated. Because EPA’s response to recommendation 1.b. is
not a clear statement of agreement or disagreement, this recommendation has been designated
unresolved with resolution efforts in progress. In its 90-day response to this report, EPA should
provide an update on the resolution status and, if the recommendation is agreed to, provide
estimated milestones for completion.

Recommendation 1.c.: OIG recommends that the Assistant Administrator for Solid Waste and
Emergency Response develop a model waste management plan and a waste oversight framework
that includes: i.) provisions for including all states and facilities involved in the process; ii.)
definition of roles and responsibilities for all authorized responders; and, iii.) an exit strategy for
decommissioning waste management oversight activities.

Response: EPA agrees with this recommendation to develop a model waste management plan.
In, addition, as noted in Recommendation 1.b., EPA will determine whether it needs to modify
any waste management guidance as it relates oversight. OSWER has already prepared a
guidance, “Planning for Natural Disaster Debris (PNDD),” March 2008, which captures lessons
learned from our response to Hurricane Katrina and other natural disasters. This guidance
provides a framework for the development of incident-specific waste management plans, which
can be applied to any disaster. This guidance discusses waste management and recycling
approaches for state and local emergency planners/managers to use in planning for debris


11-P-0706                                                                                         25
transportation, treatment, and disposal from any natural disaster. We applied this guidance in
reviewing BP’s waste management plans. The Federal Emergency Management Agency
(FEMA) was involved in the review process for this guidance and the guidance is consistent with
FEMA’s Debris Management Guidance. This guidance is available at:
http://www.epa.gov/osw/conserve/rrr/imr/cdm/pubs/pndd.pdf.

Second, OSWER has created a website that focuses on “Waste Management for Homeland
Security Incidents” at: http://epa.gov/waste/homeland/. This website includes a wealth of waste
management information for emergency managers and planners and covers all types of disasters.
This website was developed as part of EPA’s ongoing waste management efforts under
Homeland Security Presidential Directives, as well as the National Response Framework. Many
of these efforts have been undertaken jointly with other federal and state agencies. The model
waste management plan for a coastal SONS and any additional guidance developed by EPA
(Recommendation 1.b.) that would modify or amend existing waste management oversight
guidance for application to a coastal SONS would be posted to this website.

OIG Response: EPA agreed to the recommendation. We acknowledge EPA’s efforts to prepare
for waste management activities in the event of a natural disaster or homeland security incident.
In the attached comments, EPA itself notes that it is inappropriate to compare the response to this
oil spill with the Agency’s response to Hurricane Katrina because the Hurricane Katrina was a
Stafford Act response, not a CWA Section 311 response, and EPA plays a different role in
Stafford Act responses than in CWA Section 311 responses in the coastal zone. In addition, the
purpose of the guidance document, Planning for Natural Disaster Debris, is described as a tool
for local communities to use. We also did not learn of the document during our initial research
efforts and it is unclear the extent to which EPA responders referred to the document during this
response. In terms of the “Waste Management for Homeland Security Incidents” website, the
website should clearly indicate that, in addition to homeland security incidents, it will also
contain information on waste management oversight guidance applicable to a coastal Spill of
National Significance so that those seeking the information can easily find it. EPA should also
consider whether there is another website specific to oil spills where it would be appropriate to
place a model waste management plan.

Because EPA did not provide a planned completion date, this recommendation is unresolved
with resolution efforts in progress. In its 90-day response to this report, EPA should include
estimated milestone dates and a planned completion date, or confirm its completion of this
recommendation.

Recommendation 2: OIG recommends that the Assistant Administrator for Solid Waste and
Emergency Response to the extent needed, seek additional authorities from the lead agency to
perform waste management oversight in offshore spills of national significance.

Response: EPA believes it has sufficient authority to perform waste management oversight,
therefore, EPA does not believe it is necessary to seek additional authorities from the lead
agency. The Coast Guard is aware of the expertise that EPA can provide. The role of a
supporting agency is clearly defined, and EPA believes we can provide effective assistance in the



11-P-0706                                                                                        26
support agency role during an event in which the Coast Guard designates the FOSC. See the
response to Recommendation 1.a.

 OIG Response: We disagree that the role of the supporting agency is clearly defined; however,
 our intent for this recommendation was for EPA to determine whether it needed additional
 authorities to perform waste management oversight in offshore Spills of National Significance.
 We raised the issue to EPA management and while we continue to believe the supporting
 agency role is not clearly defined, we defer to the Agency’s decision. Because EPA has
 determined that it does not need additional authorities, we consider this response to be
 completed and closed upon issuance of the report.

Recommendation 3: OIG recommends that the Assistant Administrator for Solid Waste and
Emergency Response update EPA’s 2002 guidance to include EPA opinions and procedures for
overseeing waste from this spill and circumstances under which E&P waste could be managed
or disposed of differently.

Response: EPA disagrees with the recommendation to update the 2002 guidance on E&P
waste ("Exemption of Oil and Gas Exploration and Production Wastes from Federal Hazardous
Waste Regulations"). This guidance serves a very specific purpose: to guide regulators and the
regulated community in determining which wastes generated at oil and gas production operations
are regulated as hazardous waste under RCRA. Developing procedures for managing and
disposing of wastes from oil spills raises fundamentally different issues. Depending on the origin
of the spill, the E&P exemption may not apply to oil spill wastes (for example, crude oil spilled
from a tanker in transport would not be subject to the E&P exemption). Therefore, the E&P
guidance would not be an appropriate place to address these issues.

OIG Response: We recognize that the E&P exemption does not apply to all oil spills, and we
are recommending that EPA update the guidance only as it applies to the E&P exemption. We
have not found any other comprehensive E&P guidance written by EPA for the purpose of
clearly communicating to regulators and the regulated community. Therefore, this guidance
represents an opportunity for EPA to demonstrate transparency by discussing possible exceptions
and/or departures from general procedures during oil spills and other circumstances.

Details on how EPA, as a support agency, responded to this Spill of National Significance,
including actions taken to oversee waste management activities, should be preserved to assist
future response efforts. We agree that, as the 2002 E&P guidance is a general guidance
document, it may not be the appropriate place to discuss EPA opinions and procedures for the
Gulf Coast oil spill. Therefore, we have revised the recommendation in the final report to have
EPA incorporate into its lessons-learned review a discussion of EPA’s opinions and procedures
for overseeing and handling waste from this spill, including waste subject to the E&P exemption.
The recommendation is unresolved with resolution efforts in progress. In its 90-day response to
this report, EPA should provide an update on the resolution status and, if agreed upon, provide
estimated milestones for completion.

Also please find attached our specific comments on the draft report that address concerns that
require your attention and consideration. Should you have any questions, please contact Dana


11-P-0706                                                                                        27
Tulis, in the Office of Emergency Management at (202) 564-8600. We appreciate your efforts
and your consideration of our comments as you develop the final report.

Attachment

cc: 	   Barry Breen, OSWER
        Lisa Feldt, OSWER
        Suzanne Rudzinski, ORCR/OSWER
        Sandra Connors, ORCR/OSWER
        Lawrence Stanton, OEM/OSWER
        Dana Tulis, OEM/OSWER
        Cynthia Giles, OECA
        Adam Kushner, OCE/OECA
        Elliott Gilberg, OSRE/OECA
        Scott Fulton, OGC
        Mary Kay Lynch, OGC/SWERLO
        Al Armendariz, Region 6
        Sam Coleman, Region 6
        John Blevins, Region 6
        Carl Edlund, Region 6
        Gwendolyn Keyes-Fleming, Region 4
        Dee Stewart, Region 4
        Franklin Hill, Region 4
        Carolyn Copper, OIG




11-P-0706                                                                                28
Specific Comments on Report Findings:

At a Glance, under “What We Found”:

   1.) First Paragraph, Beginning of First Sentence; Replace “Within EPA’s limited scope of
       responsibility, its oversight of the Gulf Coast oil spill…” with “EPA was a support
       agency to the Coast Guard, the lead federal agency responsible for designating the
       Federal On-Scene Coordinator (FOSC) during the Deepwater Horizon (DWH) oil spill.
       Within EPA’s scope of responsibility as a support agency, its oversight of the Deepwater
       Horizon (DWH) oil spill…”

OIG Response: This sentence was modified in our final report to clarify that EPA was a support
agency to the Coast Guard.

   2.) First Paragraph, End of First Sentence; Replace “disposed of properly” with “disposed of
       in a manner protective of human health and the environment.” (To reflect that the
       directives were made pursuant to the FOSC’s authority under the Clean Water Act
       (CWA) Section 311).

OIG Response: As written, “disposed of properly” is an appropriate, summary-level statement
for the first sentence in the “At a Glance” section. Additional information on the protection of
human health and the environment appears later in the same paragraph as well as in the chapter
sections of the report.

   3.) First Paragraph, Second Sentence; Insert “as well as expectations” Between “waste
       management activities” and “during the Gulf Coast oil spill” (to reflect that EPA did
       more than provide input into waste directives but gave broader-based input and
       recommendations to the FOSC).

OIG Response: The sentence provides an appropriate, summary-level description for the “At a
Glance” section. Additional information on EPA’s waste management oversight activities
appears in the chapter sections of the report.

   4.) First Paragraph, Last Sentence; Add “spill” between “was the first” and “to be
       designated.”

OIG Response: An insertion of the word “spill” is not needed in this sentence.

   5.) Second Paragraph, First Sentence; Replace “significant spills” with “Spills of National
       Significance.”

OIG Response: This sentence was modified in our final report.

   6.) Second Paragraph, Second Sentence; Add “for waste exempt from RCRA’s Subtitle C
       hazardous waste regulations” between “in place” and “at the time of the spill.”



11-P-0706                                                                                      29
OIG Response: The sentence provides an appropriate, summary-level description for the “At a
Glance” section. Additional information on the exemption appears in the chapter sections of the
report.

   7.) Second Paragraph, Third Sentence; Replace “response plans” with “waste management
       plans in Area Contingency Plans (ACPs).”

OIG Response: The sentence provides an appropriate, summary-level description for the “At a
Glance” section. Additional details on the completion status of the ACPs appear in the chapter 3
of the report.

   8.) Second Paragraph, Fifth Sentence; As described elsewhere, EPA did not act in a manner
       different than provided by guidance. In this case, EPA made recommendations based on
       the magnitude and nature of the spill response. See comments 15 -19 under the section
       titled, Chapter 3 – EPA Action on Lessons Learned Can Help Ensure Future
       Success on Oil Spill Waste Management.

OIG Response: No change is needed. The EPA guidance document, Exemption of Oil and Gas 
Exploration and Production Wastes from Federal Hazardous Waste Regulations, issued in 2002,
provides information on the basic rules for determining whether a waste is exempt. During the
Gulf Coast oil spill, EPA decided that the oil spill waste should be managed in a manner
different than provided by this guidance.

Chapter 1 – Introduction

   1.) Page 1, Purpose, First Paragraph, First Sentence; In the first sentence, reference is made
       to the “BP America Production Company’s Gulf Coast oil spill,” and elsewhere in the
       report the oil spill is referred to as the “Gulf Coast oil spill,” the “BP spill,” and the
       “Deepwater Horizon oil spill”. There should be some consistency established in
       terminology when referring to the oil spill. The spill should be referenced as the
       “Deepwater Horizon (DWH) oil spill.”

OIG Response: This sentence was modified in the final report to prevent misreading. We
consistently use the term “Gulf Coast oil spill” in our report, and no further modification is
needed.

   2.) Page 1, Background, First Paragraph, Last Sentence; The statement is made that “an
       estimated 5 million barrels of oil” were spilled by BP. The quantity of oil spilled is in
       dispute and is a litigable issue as part of the government’s enforcement action filed in
       December 2010 against BP and other responsible parties. The quantity spilled is also a
       key element for liability and is an express penalty factor under Section 311 of the CWA.
       Because this is a matter that is currently before the court as part of the government’s
       enforcement action, it would be inappropriate for the IG to be making independently
       representations regarding the quantity spilled (a view shared by the Department of
       Justice). This reference should be deleted or rephrased, with proper source citations
       provided (e.g., “By the time that the damaged oil wellhead was capped on July 15, 2010,


11-P-0706                                                                                        30
       [insert number of barrels] millions of barrels of oil were estimated by [insert source
       providing the estimation] have been released into the Gulf of Mexico”).

OIG Response: A footnote has been added in our final report citing the reference we used and
noting the ongoing investigation into the number of barrels spilled, as OSWER requested in OIG
Report No. 11-P-0534, Revisions Needed to National Contingency Plan Based on Deepwater
Horizon Oil Spill.

   3.) Page 1, Background, First Paragraph; This paragraph should be revised to clearly state
       that because the DWH oil spill occurred in the coastal zone, a Coast Guard official was
       designated as the Federal On-Scene Coordinator (FOSC) to coordinate and direct the
       response action. In addition, because the spill was classified by the Coast Guard as a
       “spill of national significance,” another Coast Guard official was designated as the
       National Incident Commander. EPA’s role as a support agency to the Coast Guard for
       this spill should also be made clear in this paragraph.

OIG Response: This comment refers to the organization of this section of the report rather than
the content. The additional information requested appears on page 3 and 4 of the report. No
modifications are needed.

   4.) Page 1, Waste Streams and Disposal, First Paragraph, Fourth Sentence; Generally
       POTW is referred to as “Publicly Owned Treatment Works.” The abbreviations page and
       page 1 use "Publically..."

OIG Response: The spelling was modified in our final report.

   5.) Page 1, Waste Streams and Disposal, First Paragraph Fifth Sentence; “Solid waste” is a
       defined term in RCRA. Under RCRA, “solid waste” includes liquid wastes. Replace
       “solid waste and materials” with “waste material in solid form.”

OIG Response: This sentence was modified in our final report.

   6.) Page 2, Waste Streams and Disposal, Second Full Paragraph, Second Sentence; Replace
       “This determination” with “This exemption from Subtitle C regulations.”

OIG Response: This sentence was modified in our final report. “Subtitle C regulations” is
referenced in the previous sentence and does not need to be repeated here.

   7.) Page 3, Waste Streams and Disposal, Top of Page, Carryover Sentence; Replace “E&P
       wastes may be treated as solid wastes, and states have approval to manage them” with
       “solid wastes that meet the E&P exemption from federal hazardous waste regulations are
       regulated as nonhazardous solid waste, predominately by state and local governments.”

OIG Response: This sentence has been modified in our final report.




11-P-0706                                                                                       31
   8.) Page 3, Waste Streams and Disposal, Top of Page, First Complete Sentence; Replace
       “management or oversight of E&P waste disposal” with “management of solid waste.”

OIG Response: This sentence has been modified in our final report.

   9.) Page 3, Waste Streams and Disposal, Top of Page, Between First and Second Complete
       Sentence; The following sentence should be added; “EPA’s role in solid waste
       management includes setting national goals, providing leadership and technical
       assistance, and developing guidance and educational materials.”

OIG Response: The scope of this paragraph is limited primarily to a description of the oil and
gas exploration and production waste exemption. Information regarding EPA’s role in solid
waste management appears in chapters 2 and 3 of the report.

 10.) Page 3, Waste Streams and Disposal, Top of Page, Third Complete Sentence; This
      sentence should be deleted or clarified – the statement that, “The states involved in the
      Gulf Coast oil spill response have authority to manage nonhazardous waste, including
      E&P waste” incorrectly suggests that states have exclusive authority. E&P waste is
      exempted from federal hazardous waste regulations, but EPA retains statutory
      enforcement authorities and the FOSC has independent response authority under CWA
      Section 311.

OIG Response: This sentence was deleted from our final report.

 11.) Page 3, Waste Streams and Disposal, Top of Page, Fourth Complete Sentence; Replace
      “provides information on the basic rules for determining whether a waste is exempt” with
      “provides background on the E&P exemption, information on how to determine whether
      a solid waste is covered by the E&P exemption, examples of wastes that are covered and
      not covered by the E&P exemption, the status of E&P waste mixtures, and clarifications
      on common misunderstandings about the E&P exemption.”

OIG Response: This sentence was modified in our final report. The scope of this section is
limited to a brief summary of the E&P exemption and the guidance document, and therefore, this
level of detail is not necessary here. However, we have included a few of the additional details
suggested.

 12.) Page 3, Oil Spill Response Guidance and Procedures, First Paragraph; The following
      should be clarified:
         	 The chair of the National Response Team (NRT) is a representative of EPA and
             the vice chair is a representative of the Coast Guard, with the exception of periods
             of activation because of response action. During activation, the chair is the
             member agency providing the On-Scene Coordinator (OSC). See 40 CFR §
             300.110. Therefore, during the Deepwater Horizon (DWH) oil spill, the chair was
             the Coast Guard.
         	 Area Committees [not the Regional Response Team (RRT)] are responsible for
             developing Area Contingency Plans (ACPs) for each area designated by the


11-P-0706                                                                                     32
               President. RRT’s are responsible for reviewing all of the ACP’s in their respective
               region. Responsibilities of Area Committees are described in §300.205(c). See 40
               CFR § 300.105.
            	 ACPs are plans that are developed to be implemented in conjunction with the
               National Contingency Plan (NCP) and Regional Contingency Plan (RCP). See 40
               CFR § 300.5 (Definitions).

OIG Response:
First bullet point: The description in question is part of a brief background on the NCP and is 

consistent with the NCP. The next section of the report, as well as information in chapter 3, 

explains the roles of EPA and USCG during the Gulf Coast oil spill response. No change is 

needed.

Second bullet point: The section was modified to include a note that Area Committees develop 

ACPs. 

Third bullet point: This section was modified in our final report to include this information.

 13.) Page 4, BP and Federal Government Roles in Cleanup, First Paragraph, First Sentence
      and Footnote (FN) 5; Although it assumed this role during the response, BP is not the
      only party legally responsible for the cleanup of the DWH oil spill, as the first sentence
      of this paragraph seems to indicate. Rather, as indicated in FN 5, the Coast Guard
      designated BP and 5 other companies as responsible parties under the Oil Pollution Act.
      The text of this paragraph should be revised to conform to the footnote.

OIG Response: This sentence was modified in our final report to incorporate the footnote into
the text.

 14.) Page 4, BP and Federal Government Roles in Cleanup, First Paragraph, Second
      Sentence and FN 6; It is unclear how FN 6 relates to the second sentence of this
      paragraph, which identifies the lead response agencies for oil spills in the coastal and
      inland zones. It would be more appropriate to cite to the CWA Section 311(c) and (e)
      authorities in FN 6. In addition, the current language does not clearly summarize EPA’s
      RCRA Section 7003 authority; if such language is used, replace the current language with
      the following: “Under RCRA, EPA may require action upon receiving evidence that past
      or present handling of solid or hazardous waste may require action when a situation may
      present an imminent and substantial endangerment to health or the environment. It was
      not necessary for EPA to invoke this authority during the response.”

OIG Response: Further citation of the sentence referenced is not necessary. The paragraph was
modified in our final report to incorporate the footnote into the text.




11-P-0706                                                                                     33
 15.) Page 4, BP and Federal Government Roles in Cleanup, First Paragraph, Second to Last
      Sentence; This sentence needs to be restructured to clarify the intended meaning. The
      beginning of the sentence, “EPA established responders” is completely independent from
      the second component of the sentence, “BP Unified Commander served as the
      responsible party’s counterpart to the FOSC.” EPA responders were supporting the
      Coast Guard FOSC, not BP.

OIG Response: The sentence was modified in our final report.

16.) Page 4, BP and Federal Government Roles in Cleanup, Second Paragraph, Second
     Sentence; Insert the phrase “and certain deliverables” after “submit waste management
     plans…”

OIG Response: The sentence was modified in our final report.

17.) Page 4, BP and Federal Government Roles in Cleanup, FN 7; The FOSC is a “pre-
     designated federal official” not a “representative.”

OIG Response: The sentence was modified in our final report.

18.) Page 5, Noteworthy Achievements, First Sentence; Replace “EPA worked to ensure” with
     “As a support agency to the Coast Guard, EPA worked to ensure.” 

OIG Response: The sentence was modified in our final report.

19.) Page 5, Noteworthy Achievements, Third Paragraph, Second Sentence; The sentence
     should be revised to read, “We interviewed the incident FOSC….”

OIG Response: The sentence was modified in our final report.

20.) Page 6, Scope and Methodology, Last Paragraph, First Sentence; Delete “and” so the
     phrase reads “waste management oversight activities.”  

OIG Response: This is an editorial comment. No change is needed.

Chapter 2 – EPA Demonstrated Leadership in Oversight of Waste Management Activities

  1.)	 Page 7, First Paragraph, First Sentence; Delete “and plans” so the phrase reads “EPA
       initiated oversight activities that went beyond…”

OIG Response: The sentence was modified in our final report.

  2.)	 Page 7, First Paragraph, Third Sentence; The statement that the increased federal
       oversight of BP’s waste management activities “was not designed to independently
       account for the full volume and disposition of waste produced” suggests that some
       amount of spill waste was unaccounted for. There is no evidence that would suggest or


11-P-0706                                                                                     34
       support this conclusion. Similarly, on page 8 under EPA’s Waste Management
       Oversight Activities the first sentence states that EPA’s oversight did not include
       procedures to “independently track” the handling and disposal of spill waste. EPA did
       perform independent reviews of the waste tracking data BP submitted on the ICS-209
       Forms (Consolidated Daily Waste Tracking Reports). These independent EPA reviews
       included ensuring that the data submitted were consistent between the daily and
       cumulative reports for waste volumes, waste classifications and disposal facilities used.
       In addition, EPA monitored BP’s waste tracking and reporting for it timeliness in
       accordance with the provisions set forth in the waste management directives. In fact, on
       several occasions EPA and Coast Guard pointed out the waste tracking deficiencies in
       letters to BP (July 1, 2010 letter from EPA/OSWER AA to BP and a July 24, 2010 letter
       from the Coast Guard to BP). These letters were posted on EPA’s Gulf Spill website.

OIG Response: The statement describes the intent of the federal oversight of BP’s waste
management activities and does not imply that spill waste was unaccounted for. However, EPA
did not provide evidence during our review that it conducted a complete and full independent
accounting of the oil spill waste. EPA’s oversight activities at staging and decontamination areas
as well as landfills did not include a review of the accuracy of what went on BP’s waste
manifests. While EPA did monitor the waste tracking and reporting, it relied on BP’s
documentation and website to do so. Furthermore, the review of BP’s waste tracking and
reporting for timeliness is not equivalent to an independent review. No change is needed to the
report.

  3.)	 Page 9, EPA’s Waste Management Oversight Activities, Second Full Paragraph, First
       Sentence; EPA did not as the sentence states, "ensure[ ] compliance at the landfill and
       staging area facilities by developing a Staging/Decontamination Area and Landfill Site
       Visit Plan." Rather, EPA screened facilities for compliance status before their inclusion
       in the waste management plans and performed site visits to landfills to ensure that BP
       was handling and disposing of waste in accordance with approved waste management
       plans. These sentences should be changed to more accurately reflect EPA’s role and that
       the states have primary responsibility for compliance at non hazardous waste landfills, as
       they are the approved authority for the administering the RCRA Subtitle D program.

OIG Response: The fact that EPA screened landfill and staging area facilities for compliance
status before their inclusion in the waste management plans is described in the second paragraph
on page 9. In the second paragraph, we note that EPA has developed a Staging/Decontamination
Area and Landfill Site Visit Plan. We describe what the plan stated EPA would do and the extent
to which the plan was adhered to. It is not necessary to restate here that the states have primary
responsibility for compliance at nonhazardous waste landfills, as that information is stated
elsewhere in the report.

  4.)	 Page 9, EPA’s Waste Management Oversight Activities, Second Full Paragraph, Last
       Sentence; This sentence should be clarified to make it clear that the “2-month period”
       refers to the 22 site visits to landfills and the period of “June 28 to October 4, 2010”
       refers to the 190 visits to staging areas and decontamination sites.



11-P-0706                                                                                     35
OIG Response: The timeframes for site visits have been clarified for both the landfills and the
staging areas and decontamination sites.

  5.)	 Page 10, EPA’s Waste Management Oversight Activities, First Paragraph, Third
       Sentence under Photo; Replace “EPA required, though the directives issued by the Coast
       Guard” with “The directives required” (to reflect that the Coast Guard was the FOSC, not
       EPA).

OIG Response: The sentence was modified in our final report.

  6.)	 Page 10, EPA’s Waste Management Oversight Activities, First Paragraph, Fourth
       Sentence under Photo; Under RCRA, a product cannot be a waste. Therefore, replace
       “waste products” with “waste streams.”

OIG Response: The sentence was modified in our final report.

  7.)	 Page 10, EPA’s Waste Management Oversight Activities, First Paragraph, Fifth
       Sentence under Photo; Replace “toxicity exceedance” with “one exceedance of the
       toxicity characteristic.”

OIG Response: The exceedance of the toxicity characteristic has been further explained and
clarified in the report.

Chapter 3 – EPA Action on Lessons Learned Can Help Ensure Future Success on Oil Spill
            Waste Management

  1.) Page 12; The introductory paragraph states that “EPA fell short of its own goals in some
      instances.” This statement is without support and the report does not specify which goals
      EPA failed to meet. The statement that the development of waste plans and procedures
      as the response progressed “potentially divert[ed] resources to planning that could have
      been used to strengthen the response effort” is likewise without supporting evidence or
      foundation. EPA believes that were ample resources in the Incident Command System
      (ICS) to handle the waste management activities that were necessary for the response for
      the DWH response. The ICS system is structured to provide the necessary resources and
      that diversion of resources would be contrary to the ICS system.

OIG Response: The EPA Administrator’s prepared statement for the U.S. Senate, Subcommittee
on Commerce, Justice, Science, and Related Agencies, Committee on Appropriations, included
the following summary statement, which noted that EPA was committed to protecting Gulf Coast
communities:

       EPA will continue to provide full support to the USCG and the Unified
       Command, and will continue to take a proactive and robust role in dispersant
       use as well as monitoring, identifying, and responding to potential public
       health and environmental concerns, including waste management and beach
       cleanup. EPA, in coordination with our federal, state, and local partners, is
       (Continued on next page)

11-P-0706                                                                                    36
       (Continued from previous page)
       committed to protecting Gulf Coast communities from the adverse
       environmental effects of the Deepwater Horizon oil spill. As local Gulf Coast
       communities assess the impact of the Deepwater Horizon oil spill on their
       economies, EPA, in partnership with other federal, state, and local agencies, as
       well as other community stakeholders, will devote its efforts necessary to assist
       in the oil spill response.

In addition, EPA stated on its website that it would conduct visits to landfills twice a month and
to staging areas once a week. Directives issued by the Coast Guard also provided EPA access to
facilities or any location where waste is temporarily or permanently stored by BP. However, as
described on pages 14–16 of this report, EPA did not visit landfills, staging areas, and recycling
centers in the Gulf Coast communities of Texas and Oklahoma. Moreover, EPA did not visit or
assess any liquid waste or recycling facilities that accepted oil spill waste.

In the overview paragraph for this chapter, we include the statement: “Waste management plans
and oversight procedures were developed and finalized as the response progressed, potentially
diverting resources to planning that could have been used to strengthen the response effort.” The
statement is supported by text on pages 13–14. We do not dispute or analyze the level of
resources used for waste management planning in the Incident Command System. However, we
do note that these resources (time, material, or personnel) could have potentially been used in
other aspects of the response.

  2.) Page 12; In the first and last sentence of the introductory paragraph, clarify that when the
      IG is referring to the “oil spill” it means the “Deepwater Horizon oil spill.”

OIG Response: The first sentence was modified in our final report to be consistent with the rest
of the report. This is an editorial comment and no further changes are needed.

  3.) Page 12, EPA Needs Better Waste Management Guidance for Spills of National
      Significance, First Paragraph, First Sentence; Add the following language to the
      beginning of the sentence: “Since the Deepwater Horizon oil spill was in the coastal
      zone,…”

OIG Response: The final report text has been modified accordingly.

  4.) Page 12, EPA Needs Better Waste Management Guidance for Spills of National
      Significance, First Paragraph; The last sentence of this paragraph states that classification
      of an oil spill as a “spill of national significance” (SONS) does not have any procedural
      impact beyond the naming of a National Incident Commander. While this statement may
      be an accurate reading of the applicable NCP provision (40 CFR § 300.323), it fails to
      take into account CWA Section 311(c)(2)(A). This statutory provision authorizes the
      President to direct all federal, state and private actions to remove a discharge that “is of
      such a size or character as to be a substantial threat to the public health or welfare of the
      United States.” In such a case, under Section 311(c)(2)(B), the President is authorized to
      take necessary removal actions “without regard to any other provision of law governing
      contracting procedures or employment of personnel by the Federal Government.” The

11-P-0706                                                                                      37
       President’s authority under this provision, as with other CWA Section 311(c) authorities,
       has been delegated by Section 3 of Executive Order 12777 to the Coast Guard for the
       coastal zone and to EPA for the inland zone. Use of this authority, in conjunction with
       classification of a spill as a SONS, would provide additional flexibility in responding to
       such a spill.

OIG Response: We acknowledge that Clean Water Act Section 311 (c) grants certain authorities
and understand that the NCP allows for flexibility during oil spill responses. However, this
section of the report is focused on specific procedures that may be activated when a spill is
designated a Spill of National Significance. As Clean Water Act Section 311 does not
specifically mention Spills of National Significance, changes to the final report are not
necessary.

  5.) Page 13, EPA Can Improve Performance During Spills of National Significance with
      Additional Planning, First Paragraph; The last sentence states that, “However, no plans
      or guidance had been developed in advance to outline what EPA’s role would be in this
      area for coastal Spills of National Significance.” As noted several times in the draft
      report, as the designated lead agency for coastal spills, it is up to the Coast Guard to
      determine whether or not to even involve EPA in responses to coastal spills, including
      waste management. The Coast Guard bears the responsibility for pre-planning to the
      extent they believe appropriate. The IG should clarify whether it is suggesting that EPA
      should expend its resources to plan for actions for which it has no jurisdiction absent a
      Coast Guard request. The IG also compares EPA’s response in DWH with EPA’s
      response in Katrina. This comparison is inappropriate because Hurricane Katrina was a
      Stafford Act response, not a CWA Section 311 response, and EPA plays a different role
      in Stafford Act responses than in CWA Section 311 responses in the coastal zone.

OIG Response: We acknowledge that EPA works at the request of the Coast Guard during NCP
responses in the coastal zone. However, Emergency Support Function #10 of the National
Response Framework identifies functions for supporting Agencies. In our opinion, this creates an
opportunity to develop clarifying and implementing guidance on the roles of supporting agencies
during responses under the NCP. We have compared EPA’s response to Hurricane Katrina only
to point out EPA’s experience in dealing with large volumes of disaster debris over an extended
period of time. No further changes to the draft report are necessary.

  6.) Page 13, EPA Can Improve Performance During Spills of National Significance with
      Additional Planning, Third paragraph, Second Sentence; The phrase “Time had to be
      taken” indicates a negative impact, but there is no evidence to support any negative
      impact.

OIG Response: The Coast Guard issued waste management directives in June 2010. The
Gulfwide waste management plan was finalized in October 2010, approximately 4 months later
and at a time when waste management oversight activities were winding down. “Time had to be
taken” is a descriptive phrase and appropriate in the context of this paragraph.

  7.) Page 14, EPA Can Improve Performance During Spills of National Significance with
      Additional Planning; Top of Page; The last sentence states that, “Some UAC staff

11-P-0706                                                                                     38
       suggested that the extensive revisions to the plan required resources that could have been
       used elsewhere in the response.” There is no evidence cited to support this statement. In
       addition, the import of this statement is unclear. The IG seems to suggest that the waste
       management plans should not have been revised to address the evolving and changing
       situation presented by the handling of DWH oil spill waste.

OIG Response: The statement describes what we heard from some UAC staff, and we believe
that it is a valid point. As noted in our response to the previous comment, it took approximately
4 months to develop and finalize the waste management plans. When the Gulfwide waste
management plan was finalized in October 2010, it was at a point when the waste management
oversight activities were winding down. This calls into question whether the amount of time
spent on the plan impacted its utility.

  8.) Page 14, EPA Can Improve Performance During Spills of National Significance with
      Additional Planning, Third Paragraph; The fourth sentence in this paragraph states that,
      “[S]ome EPA responders felt EPA conducted independent waste sampling and landfill
      staging area visits for too long based on the consistent characteristics of waste streams.”
      The intent of this statement is not clear – while it tends to suggest that the IG believes
      that EPA should have conducted less sampling and fewer site inspections, this contradicts
      statements elsewhere in the report suggesting that EPA should have conducted more
      inspections and sampling – including the section immediately following this statement.
      EPA believed it was appropriate to conduct an aggressive independent waste sampling
      and landfill/staging area visits to ensure that BP’s waste management activities were
      appropriate for the waste encountered. This was especially important considering the
      magnitude and extent of the spill (covering a large portion of the Gulf, impacting 4 states
      and 2 EPA Regions), the duration of the spill, the weathering of the spill materials, EPA’s
      and the public’s concern over the use of dispersants, the changes in BP’s waste
      management approaches and facilities utilized to manage the waste, and long term
      restoration activities (some of which is still occurring).

OIG Response: This sentence reflects what we heard in meetings with EPA regional staff and is
cited as such. This statement is included because it supports our finding that there were no
established criteria for demobilizing EPA’s activities during the Gulf Coast oil spill response. No
changes to the final report are necessary.

   9.) Page 14, EPA Oversight Did Not Include All Affected States and Facilities, First
       Paragraph; The second sentence states that, “EPA was diligent in visiting and assessing
       the landfills and staging areas used to dispose of and transport waste from the oil spill.
       However, it did not consistently visit or assess any other type of disposal facility.” This
       statement is both inaccurate and misleading. EPA never committed to do inspections at
       recycling and treatment facilities. EPA committed to evaluate all disposal facilities to
       ensure that they were appropriate to receive the type and quantity of waste being disposed
       of, as well as their compliance records (noted in Chapter 2). (Note: EPA also was
       committed to visit and assess staging areas.) EPA also relied on a mix of federal and state
       resources to ensure oversight at facilities designated to receive waste (also noted in
       Chapter 2), and maintained and exercised its authority to sample and inspect as needed
       (additionally noted in Chapter 2). EPA focused its direct on-site activities at locations

11-P-0706                                                                                      39
       where it perceived the highest potential risks due to mishandling at solid waste landfills
       receiving the vast majority of oil spill waste (to ensure that no hazardous wastes were
       disposed of at such landfills and that the waste that was disposed of was not presenting an
       imminent and substantial endangerment to health or the environment) and at staging areas
       (most of which were not pre-existing, permitted facilities and thus presented the greatest
       risk of exposure). The IG appears to be criticizing the Agency for prioritizing its
       oversight activities and resources based on the volume and nature of the waste and
       facilities.

OIG Response: This section of the report is accurate, and we do not believe it is misleading.
The Agency did not prioritize its oversight activities and resources solely based on the volume
and nature of the waste and facilities. As shown in figure 2 on page 15, liquid waste made up
64 percent of the collected waste. Furthermore, while the Agency focused on landfills and
staging areas in Alabama, Louisiana, Mississippi, and Florida, it did not visit the same types of
facilities in Texas, nor did it visit any recycling facilities.

  10.) Page 16, EPA Oversight Did Not Include All Affected States and Facilities First
       Paragraph, Last Sentence; Solid waste includes any material to be disposed; it may
       include materials to be recycled. The statement that “materials sent for recycling are not
       considered wastes” is not always true. If a recycled material is not a solid waste, then it
       is not a hazardous waste and is not subject to RCRA Subtitle C requirements. However, if
       the material qualifies as a solid and is a hazardous waste, it is subject to Subtitle C
       regulation. The sentence needs to be rewritten.

OIG Response: Before drafting this report, we sought to determine why recycling facilities were
not included in EPA’s waste management oversight activities. This statement comes directly
from our meeting with EPA in which we briefed Agency managers on our draft findings and
potential recommendations, seeking clarification on issues where needed. This section of the
report discusses limitations in EPA's oversight, and the above reference to Subtitle C regulations
is out of context. No further changes are necessary.

  11.) Page 16, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, Heading; The heading needs to be revised. The word “Exemption”
       should be deleted from the heading or add the word “Hazardous” in front of “Waste.”

OIG Response: The heading was modified in our final report.

  12.) Page 16, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
      Waste Exemption, First Paragraph, First Sentence; The sentence should be revised to
      read, “The majority of waste generated from the Deepwater Horizon oil spill was
      exempted from federal hazardous waste regulations under the E&P exemption.”

OIG Response: The sentence was modified in our final report.

   13.) Page 16, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, First Paragraph, Second Sentence; This sentence should be revised to


11-P-0706                                                                                      40
       read, “Solid wastes that are covered by the E&P exemption are regulated primarily by
       state and local governments.”  

OIG Response: The sentence was modified in our final report.

   14.) Page 16, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, First Paragraph; The last sentence states that, “EPA recommended
       disposal actions that some responders considered a departure from its general E&P
       guidance.” Guidance is not legally binding and EPA has the ability to depart from guidance
       where appropriate. During EPA’s response to the DWH oil spill, guidance was modified to
       address the evolving situation. Recommending that E&P waste that failed TCLP [Toxicity
       Characteristic Leaching Procedure] go to a Class I UIC facility, rather than a Class II UIC
       facility, was consistent with providing the best possible protection to the environment and
       the surrounding communities. It was also appropriate from a legal perspective. EPA
       recommended that the Coast Guard, as the FOSC, order BP to dispose of the waste in a
       Class I facility. The Coast Guard declined to do so. The IG appears to take the policy
       debate between EPA and the Coast Guard about the appropriate handling of E&P waste that
       failed the TCLP as evidence of “confusion” on the applicability of the E&P exemption.

OIG Response: We have correctly stated that EPA’s response to the E&P waste that failed the
Toxicity Characteristic Leaching Procedure was a recommendation to the Coast Guard. While
EPA may have the ability to modify guidance, we are pointing out that some responders we
spoke to—both Coast Guard and EPA staff—questioned EPA’s recommendation. The 2002 E&P
guidance was referenced by EPA staff and in internal EPA guidance related to the Gulf Coast oil
spill. As we write on page 19, when departing from guidance, a consistent message is necessary
to ensure that EPA staff is fully knowledgeable of the necessity for additional oversight. No
further changes are necessary.

   15.) Page 16, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, First Paragraph, Fourth Sentence; The IG has mischaracterized the
       purpose and intent of the Q&A document, and then criticizes the Q&A document for
       failing to cover matters (additional testing of the oil spill waste prior to disposal) that it
       was not intended to cover. The Q&A document was designed as a summary response to
       legal questions that arose as a result of the Deepwater Horizon oil spill. The document
       was intended to provide brief responses as an aid to senior Agency officials. The
       document was not intended to reflect the comprehensive analysis of individual spill-
       specific issues (the waste management directives and plans developed pursuant to those
       directives were intended to address this level of detailed requirement).

OIG Response: We have modified our description of the Q&A document. Although we
recognize that the Q&A document was intended for senior Agency officials, we were also told
by headquarters that the document was widely distributed to headquarters and regional
management and staff working on the spill response. However, we did not find evidence
throughout our evaluation that the document was widely shared. Further guidance on the
management of the E&P waste would have provided more transparency within EPA, as we point
out in the conclusion of this chapter.


11-P-0706                                                                                         41
   16.) Page 17, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, First Complete Paragraph; Strike, “EPA’s 2002 Guidance on E&P
       waste states that it is the operator’s (e.g., BP) responsibility to determine whether waste
       is subject to hazardous waste regulations.” This statement from the guidance is taken out
       of context. 40 CFR § 262.11 requires a generator of solid waste to make a hazardous
       waste determination. While a generator of solid waste is required to make such a
       determination, EPA and its authorized states retain the ability to make their own
       determination and challenge a generator’s determination.

 OIG Response: The purpose of this paragraph is to show that EPA’s testing of the waste was a
departure from general procedure, according to EPA’s guidance and according to some staff we
spoke to, which resulted in some confusion and/or criticism. We therefore do not believe these
statements were taken out of context. We also go into detail about the directives that mandated
activities specific to this oil spill in chapters 1 and 2 of this report. No further changes are
necessary.

   17.) Page 17, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
        Waste Exemption, First Complete Paragraph; Strike, “Several EPA responders,
        including oil spill OSC’s, told us they were not aware of EPA ever having taken
        samples of oil spill waste prior to this spill.” That may be true, but there is no
        comparison with the activities conducted in other oil spills with the activities conducted
        during the DWH response. As noted on page 4 of the report to provide oversight of
        BP’s waste management activities, the Coast Guard, with EPA concurrence, issued
        waste management directives to BP.
        These directives required BP to submit waste management plans and certain deliverables
        to be approved by the Coast Guard, and to report information on the amount and
        characteristics of the waste on BP’s website. The waste management directives were
        shared with the States prior to the Coast Guard’s approval. Also the development of the
        waste plans, which covered all affected states and allowed for state-specific management
        activities, was approved by the federal and state oversight agencies. Therefore, federal
        and state responders were aware of the activities that were required to be undertaken to
        respond to the DWH spill.

OIG Response: The purpose of this paragraph is to show that EPA’s testing of the waste was a
departure from general procedure, according to EPA’s guidance and according to some staff we
spoke to, which resulted in some confusion and/or criticism. We therefore do not believe these
statements were taken out of context. We also go into detail about the directives that mandated
activities specific to this oil spill in chapters 1 and 2 of this report. No further changes are
necessary.

   18.) Page 17, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, Third Full Paragraph; The first sentence states that, “Several
       responders at EPA, the Coast Guard, and BP did not believe EPA could require BP to
       dispose of waste as hazardous, even if it failed a toxicity test.” EPA never stated that
       such a disposal was required. EPA asked the FOSC - which had the legal authority under
       CWA Section 311to require such waste to be disposed in a Class I facility - to require

11-P-0706                                                                                      42
        such a disposal in the interest of environmental protection. Also, replace “to dispose of
        waste as hazardous” with “to dispose of E&P waste in accordance with the RCRA
        Subtitle C hazardous waste regulations.

OIG Response: We have attributed this opinion to staff we spoke with at UAC, and we have
accurately characterized the opinion based on what we heard. Elsewhere in our report where we
discuss the waste in question without attribution, we characterize EPA’s request to the Coast
Guard as a recommendation. We have modified the second part of the sentence to clarify that we
are discussing E&P waste. No further changes are necessary.

   19.) Page 18, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, First Paragraph under Photo; The third sentence states that, “It took
       56 days for this container of waste to be disposed of — 11 days longer than the
       maximum 45 days allowed for containers to be stored at staging areas, as specified by
       BP’s waste management plan.” EPA and the Coast Guard agreed that disposal in Class I
       UIC well was legally proper if ordered by the FOSC pursuant to CWA Section 311 if the
       FOSC determines that such disposal is appropriate to protect public health or welfare of
       the United States from an imminent and substantial threat. EPA asked the FOSC to
       require disposal of the waste in a Class I UIC well.

OIG Response: We note the Agency’s comment, but it does not address the sentence. This
sentence describes the amount of time the container of waste was held. No changes are needed
for our final report.

   20.) Page 18, Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, First Paragraph under Photo; The fourth sentence states that, “In
       addition, a UAC representative pointed out that the container used to store the waste in
       question could not be used for further cleanup activities during this time.” This statement
       draws conclusions that are without factual support. The report cites no evidence that the
       container used to store the waste would have been utilized for further cleanup activities.

OIG Response: The statement comes from a UAC representative, and we believe it is a valid
point. It is also a fact that the container could not be used for two purposes (storing the waste in
question and further cleanup activities) at the same time.

   21.) Page 18: Some EPA Actions Caused Confusion and Frustration Regarding the E&P
       Waste Exemption, First Paragraph under Photo, Last Sentence; Delete “exempt” from
       the phrase “dispose of the E&P exempt waste.”

OIG Response: The sentence was modified in our final report.

   22.) Page 19, Conclusion, First Paragraph, First Sentence; Replace “provided assurance
       regarding the disposition and proper handling of waste” with “provided assurance
       regarding the proper handling and disposition of waste.”

OIG Response: The sentence was modified in our final report.


11-P-0706                                                                                         43
                                                                            Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Agency Followup Official (the CFO)
Regional Administrator, Region 4
Regional Administrator, Region 6
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Region 4
Audit Followup Coordinator, Region 6




11-P-0706                                                                          44
